ADDENDUM

XX

TABLE OF APPENDICES
Page[s]
Court Orders
Appx. 1.1. U.S. Court of Appeals for the Federal Cir­
1-6
cuit Decision dated February 5, 2019
Appx. 1.2. U.S. Court of Appeals for the Federal Cir­
7-8
cuit En Banc Order dated April 10, 2019
Appx. 1.3. U.S. Court of Appeals for the Federal Cir­
9
cuit Mandate dated April 17, 2019
Appx. 2.1. U.S. Court of Federal Claims Opinion and
Order dated July 12,
10-15
2018
Appx. 3.1. New York State Court of Appeals Order
16-17
dated February 23, 2010
Appx. 3.2. Appellate Division: Second Judicial De­
partment Decision and Order dated September 8,
18-21
2009
Appx. 3.3. Order to Show Cause dated October 10,
2008, signed by the Appellate Division: Second Judi22-24
cial Department
Appx. 3.4. Supreme Court of the State of New York,
County of Dutchess, Decision dated September 23,
25
2008

XXI

Bible Verses - Appx. 4.1. to 5.0
Appx. 4.1. Genesis 1: 26-27.....................
Appx. 4.2. Genesis 5:1-2..........................
Appx. 4.3. John 4:24.................................
Appx. 4.4. Romans 4:13..........................
Appx. 4.5. John 4:23-24...........................
Appx. 4.6. 1 Corinthians 13:1-13...........
Appx. 4.7. Galatians 5: 22-26.................
Appx. 4.8. 1 Corinthians 12: 7-11.........
Appx. 4.9. Romans 4:17..........................
Appx. 4.9.1. John 1:1-5 & John 1:14-18
Appx. 4.9.2. Matthew 23: 23-24.............
Appx. 4.9.3. John 4: 1-26.........................
Appx. 4.9.4. John 8:1-11..........................
Appx. 4.9.5. Luke 8:1-3............................
Appx.4.9.6. Mathew 17:27......................
Appx. 4.9.7. Matthew 14:13-21..............
Appx. 4.9.8. John 6: 1-4............................
Appx. 4.9.9. Matthew 15:32-39..............
Appx. 5.0. Deuteronomy 30:19-20.........

26
27
28
29
30
31-32
33
34
35
36-37
38
39-40
41
42
43
44
45-46
47
48

Constitution, Statutes and Regulations Appx. 5.1. to 6.8.3.
Appx.
Appx.
Appx.
Appx.
Appx.
Appx.
Appx.
Appx.
Appx.

5.1.
5.2.
5.3.
5.4.
5.5.
5.6.
5.7.
5.8.
5.9.

Const. Art. I § 8, cl. 1.....................
Const. Amend. V-Due Process.....
Const. Amend. XIV, § 1-Due Proc
Const. Amend. XI............................
5 C.F.R. § 2635.101.......................
5 U.S.C.A. § 702..............................
18 U.S.C.A. § 1961..........................
18 U.S.C.A. § 1962.........................
18 U.S.C.A. § 1964.........................

49
50
51
52
53-55
56
57-61
62-63
64

XXII

Appx. 5.9.1. 18 U.S.C.A. § 2510..
Appx. 5.9.2. 18 U.S.C.A. § 2511..
Appx. 5.9.3. 18 U.S.C.A. § 2512..
Appx. 5.9.4. 18 U.S.C.A. § 2513..
Appx. 5.9.5. 18 U.S.C.A. § 2515..
Appx. 5.9.6. 18 U.S.C.A. § 2516..
Appx. 5.9.7. 18 U.S.C.A. § 2517..
Appx. 5.9.8. 18 U.S.C.A. § 2518..
Appx. 6.1. 18 U.S.C.A. § 2520....
Appx. 6.2 28 U.S.C.A. § 1331....
Appx. 6.3. 28 U.S.C.A. § 1343....
Appx. 6.4. 28 U.S.C.A. § 1491....
Appx.6.5. 28 U.S.C.A. § 1631....
Appx. 6.6. 28 U.S.C.A. § 2201....
Appx. 6.6.1. 28 U.S.C.A. § 2202..
Appx. 6.7. 28 U.S.C.A. § 2679....
Appx. 6.8. 42 U.S.C.A. § 1983....
Appx. 6.8.1. 42 U.S.C.A. § 1985..
Appx. 6.8.2. 42 U.S.C.A. § 1986..
Appx. 6.8.3. 42 U.S.C.A. § 2000e

.65-69
.70-78
79-80
81
82
83-89
90-92
93-95
.96-98
99
100
101
102
103
104
105-108
109
110-111
112
113

001

Entered: February 5, 2019

MOORE, TARANTO, and CHEN, Circuit Judges
United States Court of Appeals for the
Federal Circuit

KAREN KHAN,
Plaintiff-Appellant
v.
UNITED STATES
Defendant-Appellee

2018-2196

Appeal from the United States Court of Federal
Claims in No. l:18-cv-00609-CFL, Judge Charles F.
Lettow.

Decided: February 5, 2019
KAREN KHAN, Poughkeepsie, NY, pro se.
ALISON VICKS, Commercial Litigation Branch,
Civil Division, United States Department of Justice,
Washington, DC, for defendant-appellee. Also repre­
sented by JOSEPH H. HUNT, ROBERT EDWARD
KIRSCHMAN, JR., PATRICIA M. MCCARTHY.

Before MOORE, TARANTO, and CHEN, Circuit
Judges.

1.1.

002

Entered: February 5, 2019

MOORE, TARANTO, and CHEN, Circuit Judges
PER CURIAM.
Karen Khan seeks review of a judgment by the
U.S. Court of Federal Claims (Claims Court) granting
the Government’s motion to dismiss Ms. Khan’s com­
plaint for lack of jurisdiction and failure to state a
claim. J.A. 2. Ms. Khan’s complaint alleged violations
under the Civil Rights Act (42 U.S.C. §§ 1985, 1986),
the Fifth and Fourteenth Amendments of the U.S.
Constitution, and the Racketeer Influenced and Cor­
rupt Organizations Act (RICO). See J.A. 103-50. Be­
cause the Claims Court properly granted the Govern­
ment’s motion, we affirm.

BACKGROUND
Ms. Khan is an attorney admitted to the bar of
the State of New York and the U.S. District Court for
the Southern District of New York (S.D.N.Y.). Appel­
lant Op. Br. at 2. In April 2018, Ms. Khan filed an
action in the Claims Court alleging, inter alia, conspir­
acy for human trafficking for the purpose of impeding,
hindering, obstructing, and defeating the due course
of justice with the intent to deny Ms. Khan the equal
protection of the laws. J.A. 103. These allegations
were based in part on “domestic violence” actions
taken by the Supreme Court of the State of New York,
Duchess County, in handling a divorce proceeding of
one of Ms. Khan’s clients. J.A. 104-06. Ms. Khan al­
leged that after these actions took place, she and her
client approached the U.S. Department of Justice
(DOJ), Civil Rights Division in 2011 and filed a com­
plaint. J.A. 107. Ms. Khan alleged that the DOJ and
the Federal Bureau of Investigation (FBI) have since
been interfering with her personal and professional
life, including her law practice. See J.A. 107-50. Ms.
Khan detailed the alleged actions taken by the FBI
and DOJ—including telephone calls, internet commu­
nications, and personal visits—throughout the
1.1.

003

Entered: February 5, 2019

MOORE, TARANTO, and CHEN, Circuit Judges
remainder of her complaint. Id. Ms. Khan sought $30
million in damages, as well as “[a]ny and all other re­
lief to which [she] is entitled.” J.A. 150.
The Government moved to dismiss Ms. Khan’s
complaint pursuant to Rules 12(b)(1) and 12(b)(6) of
the Rules of the Court of Federal Claims (RCFC). See
J.A. 10-28. The Claims Court granted the Govern­
ment’s motion, agreeing that Ms. Khan’s allegations,
though detailed, “do not link explicitly to claims for
relief under any money mandating source of law.” J.A.
2-3. The Claims Court concluded that Ms. Khan’s as­
sertions do not establish all of the material elements
necessary to sustain recovery under any viable legal
theory, and therefore fail to state a claim. J.A. 3.
The Claims Court also concluded that the fed­
eral district courts, not the Claims Court, have juris­
diction over civil-rights and RICO claims. Id. The
Claims Court then rejected Ms. Khan’s transfer re­
quest to S.D.N.Y., finding that the transfer would not
be in the interests of justice, given Ms. Khan’s failure
to state any plausible claim for relief. Id.
Ms. Khan appeals. We have jurisdiction pursu­
ant to 28 U.S.C. § 1295(a)(3).
DISCUSSION
“This court reviews de novo whether the Court
of Federal Claims possessed jurisdiction and whether
the Court of Federal Claims properly dismissed for
failure to state a claim upon which relief can be
granted, as both are questions of law.” Wheeler v.
United States, 11 F.3d 156, 158 (Fed. Cir. 1993).
“Subject matter jurisdiction is a threshold re­
quirement for a court’s power to exercise jurisdiction
over a case ....” Dow Jones & Co. v. Ablaise Ltd., 606
F.3d 1338, 1348 (Fed. Cir. 2010). “The Tucker Act. . .
‘is itself only a jurisdictional statute; it does not create
1.1.

004

Entered: February 5, 2019

MOORE, TARANTO, and CHEN, Circuit Judges
any substantive right enforceable against the United
States for money damages.”’ James v. Caldera, 159
F.3d 573, 580 (Fed. Cir. 1998) (quoting United States
v. Testan, 424 U.S. 392, 398 (1976)) (internal quota­
tion marks omitted). Thus, “[i]n order to invoke juris­
diction under the Tucker Act, a plaintiff must point to
a substantive right to money damages against the
United States.” Hamlet v. United States, 63 F.3d
1097, 1101 (Fed. Cir. 1995). “What this means is that
a Tucker Act plaintiff must assert a claim under a sep­
arate money-mandating constitutional provision, stat­
ute, or regulation, the violation of which supports a
claim for damages against the United States.” James,
159 F.3d at 580.
The Claims Court lacks jurisdiction over claims
under the Civil Rights Act, including provisions 42
U.S.C. §§ 1985 and 1986. See 28 U.S.C. § 1343(a)
(vesting original jurisdiction in federal “district
courts”); see also Searles v. United States, 88 Fed. Cl.
801, 804 (2009). The Claims Court likewise lacks ju­
risdiction over Ms. Khan’s constitutional claims be­
cause they are not based on money-mandating provi­
sions. LeBlanc v. United States, 50 F.3d 1025, 1028
(Fed. Cir. 1995) (finding allegations of violations “un­
der the Due Process Clauses of the Fifth and Four­
teenth Amendments” and “the Equal Protection
Clause of the Fourteenth Amendment” not to be “a
sufficient basis for jurisdiction because they do not
mandate payment of money by the government”). The
Claims Court also lacks jurisdiction over RICO claims.
See 18 U.S.C. § 1965(a) (“Any civil action or proceed­
ing under this chapter against any person may be in­
stituted in the district court of the United States for
any district in which such person resides, is found, has
an agent, or transacts his affairs.”); see also Hufford
v. United States, 87 Fed. Cl. 696, 702 (2009) (“This
1.1.

005

Entered: February 5, 2019

MOORE, TARANTO, and CHEN, Circuit Judges
court has no jurisdiction over RICO claims ... .”)• Be*
cause Ms. Khan did not plead any claims over which
the Claims Court has jurisdiction, we find that the
Claims Court properly dismissed Ms. Khan’s com­
plaint under RCFC 12(b)(1).
The Claims Court also properly rejected Ms.
Khan’s request to transfer the case to S.D.N.Y. When
courts lack jurisdiction, 28 U.S.C. § 1631 requires
them to transfer the case to any other court in which
the action could have been brought at the time it was
filed or noticed, “if it is in the interest of justice.”
While Ms. Khan’s complaint could have been filed in
S.D.N.Y., the Claims Court correctly concluded that it
would not have been in the interest of justice to trans­
fer the case.
In addition to dismissing for lack of jurisdiction,
the Claims Court scrutinized Ms. Khan’s complaint
and concluded that it must be dismissed for failure to
state a plausible claim. “To survive a motion to dis­
miss, a complaint must contain sufficient factual mat­
ter, accepted as true, to ‘state a claim to relief that is
plausible on its face.’” Ashcroft v. Iqbal, 556 U.S. 662,
678 (2009) (quoting Bell Atl. Corp. v. Twombly, 550
U.S. 544, 570 (2007)); accord Twombly, 550 U.S. at 555
(“Factual allegations must be enough to raise a right
to relief above the speculative level, on the assumption
that all the allegations in the complaint are true (even
if doubtful in fact).” (internal citation omitted)). “A
claim has facial plausibility when the plaintiff pleads
factual content that allows the court to draw the rea­
sonable inference that the defendant is liable for the
misconduct alleged.” Iqbal, 556 U.S. at 678. “The
plausibility standard is not akin to a ‘probability re­
quirement,’ but it asks for more than a sheer possibil­
ity that a defendant has acted unlawfully.” Id. (quot­
ing Twombly, 550 U.S. at 556).
1.1.

006

Entered: February 5, 2019

MOORE, TARANTO, and CHEN, Circuit Judges
Under those standards, the Claims Court
properly concluded that Ms. Khan has not pleaded any
facts that support her allegations against the Govern­
ment. For example, Ms. Khan alleges that the “FBI
has used different channels . . . [to] conveyQ its per­
versions to [Ms. Khan] to deny her equal protection of
the laws.” Appellant Op. Br. at 19. Ms. Khan cites to
emails and photographs as support for her allegations.
E.g., id. at 19-21. But none of these documents evi­
dences any communication by the Government. See,
e.g., J.A. 469, 471, 473-76, 488, 502-05, 531-32, 54352, 576—86. The remainder of the evidence cited by
Ms. Khan similarly fails to establish any plausible ba­
sis for her allegations.
Ms. Khan’s complaint, in fact, falls far short of
complying with the “plausibility” standard set out by
the Supreme Court in Twombly and Iqbal, and Ms.
Khan has advanced no basis for thinking that the de­
ficiency could be cured by amendment. In these cir­
cumstances, we see no error in the Claims Court’s rul­
ing that it would not have been in the interest of jus­
tice to transfer this case to S.D.N.Y. See Galloway
Farms, Inc. v. United States, 834 F.2d 998, 1000-01
(Fed. Cir. 1987).
We have reviewed Ms. Khan’s other arguments
but find them unpersuasive. Accordingly, we affirm
the Claims Court’s judgment granting the Govern­
ment’s motion to dismiss under RCFC 12(b)(1) and
denying the request to transfer.
AFFIRMED

1.1.

Entered: April 10, 2019

Order En Banc

007

NOTE: This order is nonprecedential
UNITED STATES COURT OF APPEALS FOR THE
FEDERAL CIRCUIT
KAREN KHAN
PLAINTIFF-APPELLANT
v.
UNITED STATES
DEFENDANT-APPELLEE
2018-2196
Appeal from the United States Court of Federal
Claims in No. l:18-cv-00609-CFL, Judge Charles F.
Lettow.
ON PETITION FOR PANEL REHEARING AND RE­
HEARING EN BANC
Before PROST, Chief Judge, NEWMAN, LOURIE,
DYK, MOORE, O'MALLEY, REYNA, WALLACH,
TARANTO, CHEN, HUGHES, and STOLL, Circuit
Judges.
PER CURIAM
ORDER

1.2.

Entered: April 10, 2019

Order En Banc

008

Appellant Karen Khan filed a combined petition for
panel rehearing and rehearing en banc. The petition
was referred to the panel that heard the appeal, and
thereafter the petition for rehearing en banc was re­
ferred to the circuit judges who are in regular active
service.
Upon consideration thereof,
IT Is ORDERED THAT:
The petition for panel rehearing is denied.
The petition for rehearing en banc is denied.
The mandate of the court will issue on April 17, 2019.

April 10, 2019
FOR THE COURT
Date

/s/ Peter R.Marksteiner
Peter R. Marksteiner
Clerk of Court

1.2.

Entered: April 17, 2019

009

UNITED STATES COURT OF APPEALS FOR THE
FEDERAL CIRCUIT

KAREN KHAN
PLAINTIFF-APPELLANT
v.
UNITED STATES
DEFENDANT-APPELLEE
2018-2196
Appeal from the United States Court of Federal
Claims
in No. 1: 18-cv-00609-CFL, Senior Judge Charles F.
Lettow
MANDATE
In accordance with the judgment of this Court, en­
tered February 5, 2019, and pursuant to Rule 41 of the
Federal Rules of Appellate Procedure, the formal
mandate is hereby issued.

April 17, 2019

FOR THE COURT
/s/ Peter R. Marksteiner
Clerk of Court

1.3.

010

IN THE UNITED STATES COURT OF FEDERAL
CLAIMS
No. 18-609C
(Filed: July 12, 2018)
(NOT TO BE PUBLISHED)
'k'k'k'k'k'k'k'k'kick'k'k'k'k'k'k’k’k’k'k'k'k’k'k’k'k'k'k'k’k'k'k'k

KAREN KHAN,

)

Plaintiff,

)

v.

)

UNITED STATES,

)

Defendant

)

'k'k'k'k'k'k'k'k'k'k'k'k'k'k'k'k'k'k'k'k'k'k'k'k'k'k'k'k'k'k'k'k'k'k

Karen Khan, prose, Poughkeepsie, New York.
Alison S. Vicks, Trial Attorney, Commercial Litigation
Branch, Civil Division, United States Department of
Justice, Washington, D.C., for defendant. With her on
the briefs were Chad A. Readier, Acting Assistant At­
torney General, Civil Division, and Robert E. Kirschman, Jr., Director, and Patricia M. McCarthy, Assis­
tant Director, Commercial Litigation Branch, Civil Di­
vision, United States Department of Justice, Wash­
ington, D.C.
OPINION AND ORDER
LETTOW, Judge.
Pending before the court is defendant's motion
to dismiss pursuant to Rules 12(6)(1) and 12(6)(6) of
the Rules of the Court of Federal Claims ("RCFC").
Plaintiff, Karen Khan, alleges that federal govern­
mental agencies, including the Federal Bureau of
2.1.

011

Investigation and the Department of Justice, unlaw­
fully interfered in her personal and professional life.
Compl. 9, 13-14, 16, 18, 27, 30, 34-35.1 Ms. Khan con­
tends that this interference occurred via a number of
means, including telephone calls, internet communi­
cations, and personal conversations. Compl. 15, 19-21,
31-33, 42-46, 51-53, 69-73, 76-90, 93-96, 107. She
claims that the federal governmental agencies' actions
have "denied ... the rights of women [,] including [her­
self], to the equal protection of the laws." Compl. 28;
see also Compl. 1, 28-29. The basis for Ms. Khan's al­
legations additionally relate to her professional inter­
actions in and with several federal courts and courts
of the State of New York. Compl. 1-8, 11, 30-41.2
Ms. Khan asserts defendant's actions violate 42
U.S.C. §§ 1985, 1986 and the Fifth and Fourteenth
Amendments to the United States Constitution.
Compl. at 44 (heading), 52 (heading), 57 (heading),
113. She seeks $30,000,000 in damages and "all other
relief to which [she] is entitled." Compl. 114-15. For
the reasons set out below, the court grants the govern­
ment's motion to dismiss for lack of jurisdiction and
for failure to state a claim.

1 Citations to particular portions of the plaintiffs complaint refer
to the pages in the order in which they actually appear, not as
they are numbered.
2 Ms. Kahn represents that she is a lawyer admitted to the bar in
the State of New York and the United States District Court for
the Southern District of New York. Compl. at 12, 60; see also
Compl. 15, 16, 96.

2.1.

012

STANDARDS FOR DECISION
The Tucker Act provides this court with juris­
diction to entertain "any claim against the United
States founded either upon the Constitution, or any
Act of Congress or any regulation of an executive de­
partment, or upon any express or implied contract
with the United States, or for liquidated or unliqui­
dated damages in cases not sounding in tort." 28 U.
S.C. § 1491(a)(1). The Tucker Act does not grant a
plaintiff substantive right. In re United States, 463
F.3d 1328, 1333 (Fed. Cir. 2006). Rather, "a plaintiff
must identify a separate source of substantive law
that creates the right to money damages" to establish
jurisdiction. Fisher v. United States, 402 F.3d 1167,
1172 (Fed. Cir. 2005) (en banc in relevant part) (citing
United States v. Mitchell, 463 U. S. 206,216 (1983);
United States v. Testan, 424 U.S. 392,398 (1976)).
"Where the court has not been granted jurisdiction to
hear a claim, the case must be dismissed." Trevino v.
United States, 113 Fed. Cl. 204, 207 (2013) (citing Arbaugh v. Y & H Corp., 546 U. S. 500, 514 (2006)).
Under Rule 12(b )( 6), a complaint that "fail[ s]
to state a claim upon which relief can be granted" shall
be dismissed. To survive a motion invoking Rule
12(b)(6), a plaintiffs complaint must "contain suffi­
cient factual matter, accepted as true, to 'state a claim
to relief that is plausible on its face.'" Ashcroft v. Iqbal,
556 U.S. 662, 678 (2009) (quoting Bell Atl. Corp. v.
Twombly, 550 U.S. 544, 570 (2007)). The court is
bound "to take the well-pleaded factual allegations in
the complaint as true." Papasan v. Allain, 478 U.S.
265,283 (1986); see also Cambridge v. United States,
558 F.3d 1331, 1335 (Fed. Cir. 2009). "However, re­
gardless of whether the plaintiff is proceeding pro se
or is represented by counsel, 'conclusory allegations or
legal conclusions masquerading as factual conclusions
2.1.

013

will not suffice to prevent a motion to dismiss.'"
McZeal v. Sprint Nextel Corp., 501 F.3d 1354, 1356
(Fed. Cir. 2007) (internal citations omitted); see also
Williams v. United States, 100 Fed. Cl. 263,275
(2011).
ANALYSIS
Where a plaintiff "has alleged-but ... has not
show[n]-that [she] is entitled to relief," relief cannot
be granted. Ashcroft, 556 U.S. at 678 (internal cita­
tions omitted). Ms. Khan sets out her allegations in
considerable detail, but these allegations do not link
explicitly to claims for relief under any money man­
dating source of law. See generally Compl.; Pl.'s Am.
Resp. to the Def. 's Mot. to Dismiss ("PI. 's Am. Resp."),
ECF No. 17. Her assertions do not establish "all the
material elements necessary to sustain recovery un­
der some viable legal theory," Twombly, 550 U.S. at
562 (quoting Car Carriers v. Ford Motor Co., 745 F.2d
1101, 1106 (7th Cir. 1984) (emphasis omitted)), and
they therefore fail to state a claim.
Ms. Khan concedes that her claims under the
Civil Rights Acts, specifically, 42 U.S.C. §§ 1985,1986,
are properly within the jurisdiction of federal district
courts and not that of this court. PI. 's Am. Resp. at 27.
She also initially conceded that her claims under the
Racketeer Influenced and Corrupt Organization Act
("RICO"), 18 U.S.C. §§ 1961-68, were within the juris­
diction of federal district courts, see PI. 's Resp. to Def.
's Mot. to Dismiss, at 27, ECF No. 16, but she subse­
quently withdrew that concession, see PI.' s Am.
Resp. at 27.3 In light of Ms. Khan's acknowledgment
of the
3 She withdrew that initial concession regarding jurisdiction over
RICO claims based on the decision by the Federal Circuit in
2.1.

014

jurisdictional posture of her claims, she requests that
this court transfer the case to the United States Dis­
trict Court for the Southern District of New York. Id.
at 26. Such a transfer would be appropriate under 28
U.S.C. § 1631 if specified requirements are satisfied,
namely that (1) the transferor court lacks subject mat­
ter jurisdiction; (2) at time the case was filed, it could
have been brought in the transferee court; and (3)
such transfer is in the interest of justice. See Kolek v.
Engen, 869 F.2d 1281, 1284 (9th Cir. 1989); see also
Gray v. United States, 69 Fed. Cl. 95, 100 (2005);
Skillo v. United States, 68 Fed. Cl. 734, 744 (2005).
As previously discussed, Ms. Khan's claims sat­
isfy the first element. And, federal district courts can
hear claims brought under the Civil Rights Acts and
RICO, thus fulfilling the second element. See Ingram
v. Madison Square Garden Ctr., Inc., 482 F. Supp.
414,422 (S.D.N.Y. 1979) (Civil Rights Acts); 4 K & D
Corp. v. Concierge Auctions, LLC, 2 F. Supp. 3d 525,
535 (S.D.N.Y. 2014) (RICO). Even so, Ms. Khan's
claims fail to satisfy the third element.
To satisfy this last element, a plaintiffs claims
should be sufficient to state a plausible claim. See Gal­
loway Farms, Inc. v. United States, 834 F.2d 998, 1000
(Fed. Cir. 1987). Because Ms. Khan does not support
her claims for monetary relief with plausible evidence,
the interests of justice will not be furthered by trans­
ferring Ms. Khan's claims to the United States Dis­
trict Court for the Southern District of New York. See
generally Comp I. Consequently, the court finds that
Jones v. United States, 655 Fed. Appx. 839 (Fed.Cir.2016). See
PI.'s Am. Resp. at 28. Nonetheless, this change in position and
citation to Jones is unavailing given the provisions of 18 U.S.C. §
1964(c), which specify that district courts shall have jurisdiction
over civil suits by persons injured by violations of RICO.

2.1.

015

Ms. Khan has not satisfied the prerequisites for trans­
fer.
CONCLUSION
For the reasons stated, the government's mo­
tion to dismiss plaintiffs complaint is GRANTED.4
The clerk shall enter judgment in accord with this dis­
position.
No costs.
It is so ORDERED.
Charles F. Lettow Judge

4 Ms. Khan previously filed, with leave of court, a Motion for Tem­
porary and Permanent Injunction, ECF No. 7, and a Revised Mo­
tion for Temporary and Permanent Injunction, ECF No. 8, on
May 3 and May 15, 2018, respectively. The government sought
and was granted leave to respond to both motions and Ms. Khan's
complaint in a single filing. See Order of June 4, 2018, ECF No.
11. Because the court grants the United States' motion to dis­
miss, Ms. Khan's motions seeking injunctive relief are DENIED
as moot.
2.1.

Entered: February 23, 2010

016

STATE OF NEW YORK
COURT OF APPEALS
At a session of the Court held at Court of
Appeals Hall in the City of Albany
On the twenty-third day of February 2010
Present, HON. JONATHAN LIPPMAN, Chief Judge,
presiding
Mo. No. 2009-1359
Timothy Makara,
Respondent,
v.
Kelly Makara
Appellant,
Karen Khan,
Nonparty Appellant.
Raylene Shayo,
Nonparty Respondent.

A motion for leave to appeal to the Court of Ap­
peals in the above cause having heretofore been made
upon the part of the appellant and nonparty appellant
herein, papers having been submitted thereon and
due deliberation having been thereupon had, it is
ORDERED, that the said motion, insofar as it
seeks leave to appeal from the portion of the Septem­
ber 2009 Appellate Division order that affirmed the
imposition of sanctions against appellants and the
grant of a counsel fee award to nonparty Shayo be and
the same hereby is denied; and it is

3.1.

Entered: February 23, 2010
Motion No. 2009-1359

017

February 23, 2010

ORDERED, that the said motion for leave to ap­
peal otherwise be and the same hereby is dismissed
upon the ground that the remainder of the September
2009 Appellate Division order and the Appellate Divi­
sion order denying re-argument or, in the alternative,
leave to appeal to this Court, do not finally determine
the action within the meaning of the Constitution.

Stuart M. Cohen
Clerk of the Court

3.1.

Entered: September 8, 2009

018

SUPREME COURT OF THE STATE OF
NEW YORK APPELLATE DIVISION:
SECOND JUDICIAL DEPARTMENT
D24288
T/prt
AD3d
PETER B. SKELOS, J.P. Argued- June 15, 2009
DANIEL D. ANGIOLILLO
RUTH C. BALKIN
ARIEL E. BELEN, JJ.
2008-06411
2008-06601

2008-07634

DECISION & ORDER

2008-11426
2008-11427
Timothy Makara, plaintiff-respondent, v Kelly
Makara, defendant-appellant; Karen Khan, nonpartyappellant; Raylene Shayo, nonparty-respondent.
(Index No. 7305/06)

Karen Khan, Poughkeepsie, N.Y., nonparty-appellant
pro se, and for defendant-appellant.
Ostertag O'Leary Barrett & Faulkner, Poughkeepsie,
N.Y. (Sharon M. Faulkner of counsel), for plaintiff-re­
spondent.
3.2.

Entered: September 8, 2009

019

Raylene K. Shayo, Poughkeepsie, N.Y., attorney for
the children and non-party respondent pro se.
Schiff Hardin LLP, New York, N.Y. (Paul Scrudato of
counsel for amicus curiae First Star)
In a matrimonial action in which the parties
were divorced by judgment dated June 10, 2008, the
defendant appeals (1), as limited by her brief, from so
much of an order of the Supreme Court, Dutchess
County (Pagones, J.), dated April 8, 2008, as, in effect,
upon renewal, adhered to its original determination in
an order dated January 17, 2008, denying her prior
motion to disqualify nonparty Raylene Shayo as attor­
ney for the parties' five children, (2) from an order of
the same court dated June 10, 2008, which granted
the application of nonparty Raylene Shayo, as attor­
ney for the parties' five children, for an award of an
attorney's fee, and directed her to pay the sum of
$5,532.52 of that fee to nonparty Raylene Shayo, (3)
from a judgment of the same court dated August 8,
2008, which, upon the order dated June 10, 2008, is in
favor of nonparty Raylene Shayo, as attorney for the
parties' five children, and against her in the principal
sum of $5,532.52, (4), as limited by her brief, from so
much of an order of the same court dated December 3,
2008, as granted those branches of the plaintiffs cross
motion and the separate cross motion of nonparty
Raylene Shayo, as attorney for the parties' five chil­
dren, which were for an award of costs and sanctions
against her pursuant to 22 NYCRR 130-1.1, and (5),
as limited by her brief, from stated portions of an or­
der of the same court dated December 12, 2008, which,
inter alia, denied those branches of her motion
which were to vacate certain portions of the
judgment of divorce, to set aside a stipulation of
settlement between the parties dated April 21, 2008,
for recusal, and for an award of an attorney's fee
against the plaintiff, and
3.2.

Entered: September 8, 2009

020

granted those branches of the plaintiffs cross motion
and the separate cross motion of nonparty Raylene
Shayo, as attorney for the parties' five children, which
were for an award of costs and sanctions against her
pursuant to 22 NYCRR 130-1.1, and nonparty Karen
Kahn separately appeals, as limited by her brief, from
so much of the orders dated December 3, 2008, and
December 12, 2008, as granted those branches of the
plaintiffs cross motions and the separate cross mo­
tions of nonparty Raylene Shayo, as attorney for the
parties' five children, which were for sanctions against
her pursuant to 22 NY CRR 130-1.1.
ORDERED that the appeal from the order
dated June 10, 2008, is dismissed; and it is further,
ORDERED that the orders dated April 8, 2008,
December 3, 2008, and December 12, 2008, are af­
firmed insofar as appealed from; and it is further,
ORDERED that the judgment dated August 8,
2008, is affirmed; and it is further,
ORDERED that the respondents are awarded
one bill of costs.
The appeal from the order dated June 10, 2008,
must be dismissed because the right of direct appeal
therefrom terminated with the entry of the judgment
dated August 8, 2008 (see Matter ofAho, 39 NY2d 241,
248). The issues raised on the appeal from the order
dated June 10, 2008, are brought up for review and
have been considered on the appeal from the judgment
dated August 8, 2008 (see CPLR 5501 [a] [1]).
A challenge to a stipulation of settlement which
is incorporated but not merged into a judgment of di­
vorce must be made by plenary action, and not by mo­
tion (see Candela v Kiel, 33 AD3d 833, 834; Spataro u
Spataro, 268 AD2d 467, 468; Scalabrini v Scalabrini,
242 AD2d 725, 726). Here, the defendant sought to set
aside the stipulation of settlement by motion rather
3.2.

Entered: September 8, 2009

021

than by plenary action. Consequently, the Supreme
Court properly denied her request for relief (see Reiter
v Reiter, 39 AD3d 616).
The remaining contentions of the defendant
and non-party Karen Khan either are not properly be­
fore this Court, refer to matter dehors the record, or
are without merit.

SKELOS, J.P., ANGIOLILLO, BALKIN and BELEN,
JJ., concur.

ENTER:
James Edward Pelzer
Clerk of the Court

3.2.

022

Entered: October 10, 2010
Judge: Hon. John M. Leventhal Associate Justice Ap­
pellate Division: Second Department

SUPREME COURT OF THE STATE OF NEW YORK
COUNTY OF DUTCHESS
In the matter of a Divorce Action
X R# 55914
Date: 9/ /2008
TIMOTHY MAKARA,
2008-09106
Plaintiff,
- against-

Index No. 2006/7305

ORDER TO SHOW CAUSE
KELLY MAKARA,
Defendant.
X
Upon the annexed affirmation of Karen Khan, dated
September 17, 2008, and the papers annexed hereto,
LET the Plaintiff through his attorney Sharon Faulk­
ner, Esq., and the Attorney for the Children Raylene
Shayo, Esq., through her attorney Michael Connor
SHOW CAUSE BEFORE THIS COURT, at the court­
house thereof, located at 10 Market Street, Pough­
keepsie, New York 12601, on the 24th day of October
2008 at 9:30 o'clock in the forenoon of that date or as
soon as counsel may be heard, why an order should
not be made and entered:

3.3.

023

Entered: October 10, 2010
Judge: Hon. John M. Leventhal Associate Justice Ap­
pellate Division: Second Department

1. Consolidating the motion for a stay and this motion.
2. Setting aside the coerced stipulations dated April
21, 2008.
3. Vacating the contempt finding.
4. Partially vacating the Judgment of Divorce dated
June 10, 2008.
5. Vacating the court order dated April 8, 2008.
6. That the Honorable James Pagones recuse himself
from this case
7. Granting the Defendant attorney fees and costs
8. Granting any other relief to the Defendant in the
interest of Justice

ORDERED that the service of a copy of this order to
show cause and the papers upon which it was made
upon the attorney for the children, and the Plaintiff
through his counsel, Sharon Faulkner, Esq., pursuant
to CPLR 2103(g) (i); (3) or (6) on or before October 10,
2008, shall be deemed sufficient thereof.
Dated: Brooklyn New York
October 10, 2008
Hon. James Pagones

3.3.

024

Entered: October 10, 2010
Judge: Hon. John M. Leventhal Associate Justice Ap­
pellate Division: Second Department

2008-9106
Supreme Court of the State of New York
Appellate Division: Second Judicial Department
Application pursuant to CPLR 5704 to sign the fore­
going order to show cause, which was denied by the
Supreme Court, Dutchess County, in an ex parte order
dated September 23, 2008.
ORDERED that the application is granted and the or­
der to show cause is executed as indicated.
Dated: Brooklyn, NY
October 10, 2008

ENTER
"s/"____________________
Hon. John M. Leventhal
Associate Justice
Appellate Division: Second Department

3.3.

025

Entered: September 23, 2008
Judge: Hon. James D. Pagones A.J.S.C.

SUPREME COURT OF THE STATE OF NEW
YORK- COUNTY OF DUTCHESS
X
TIMOTHY MAKARA,
DECISION

Plaintiff,
- against-

Index No.7305/06

KELLY MAKARA,
Defendant.
X
PAGONES, J.D. A.J.S.C.
On September 19, 2008, counsel for defendant
Kelly Makara submitted a proposed order to show
cause with supporting papers.
The allegations set forth in the supporting pa­
pers are inherently frivolous as defined by Part 130
of the Rules of the Chief Administrator.
The court, in the exercise of its discretion, de­
clines to sign the proposed order to show cause.
Counsel's remedy, if so disposed, is to apply to the
Supreme Court, Appellate Division, Second Judicial
Department, pursuant to CPLR §5704(a). (Greenhaus
v. Milano, 242 AD2d 383, 384 [2d Dept. 1997); Siegel,
New York Practice, 4th Ed., pgs. 421-22.)
The foregoing constitutes the decision of the Court.
Dated: Poughkeepsie, New York September 23, 2008
ENTER
"s/"
HON. JAMES D. PAGONES A.J.S.C.
3.4.

026

Genesis 1:26-27

Authorized (King James) Version (AKJV)
26 And God said, Let us make man in our image, after
our likeness: and let them have dominion over the fish
of the sea, and over the fowl of the air, and over the
cattle, and over all the earth, and over every creeping
thing that creepeth upon the earth. 27 So God created
man in his own image, in the image of God created he
him; male and female created he them

New International Version [NIV]
26Then God said, “Let Us make man in Our image,
according to Our likeness; and let them rule over the
fish of the sea and over the birds of the sky and over
the cattle and over all the earth, and over every creep­
ing thing that creeps on the earth.” 27God created
man in His own image, in the image of God He created
him; male and female He created them.

4.1.

027

Genesis 5: 1-2

Authorized (King James) Version (AKJV)
5 This is the book of the generations of Adam. In the
day that God created man, in the likeness of God made
he him; 2 male and female created he them; and
blessed them, and called their name Adam, in the day
when they were created.

New International Version [NIV]
lThis is the written account of Adam’s family line.
When God created mankind, he made them in the
likeness of God. 2He created them male and female
and blessed them. And he named them “Mankind” a
when they were created

4.2.

028

John 4:24

Authorized (King James) Version (AKJV)

24 God is a Spirit: and they that worship him must
worship him in spirit and in truth.

New International Version [NIV]
24God is spirit, and his worshipers must worship in
the Spirit and in truth.”

4.3.

029

Romans 4:13

Authorized (King James) Version (AKJV)
13 For the promise, that he should be the heir of the
world, was not to Abraham, or to his seed, through the
law, but through the righteousness of faith.

New International Version [NIV]
13It was not through the law that Abraham and his
offspring received the promise that he would be heir
of the world, but through the righteousness that
comes by faith.

4.4.

030

John 4:23-24
Authorized (King Janies) Version (AKJV)
23. But the hour cometh, and now is, when the true
worshippers shall worship the Father in spirit and in
truth: for the Father seeketh such to worship him. 24.
God is a Spirit: and they that worship him must wor­
ship him in spirit and in truth.

New International Version [NIV]
2 3Yet a time is coming and has now come when the
true worshipers will worship the Father in the Spirit
and in truth, for they are the kind of worshipers the
Father seeks. 24God is spirit, and his worshipers must
worship in the Spirit and in truth.”

4.5.

031

1 Corinthians 13: 1-13
Authorized (King James) Version (AKJV)
13 Though I speak with the tongues of men and of an­
gels, and have not charity, I am become as sounding
brass, or a tinkling cymbal. 2 And though I have the
gift of prophecy, and understand all mysteries, and all
knowledge; and though I have all faith, so that I could
remove mountains, and have not charity, I am noth­
ing. 3 And though I bestow all my goods to feed the
poor, and though I give my body to be burned, and
have not charity, it profiteth me nothing.
4 Charity suffereth long, and is kind; charity envieth
not; charity vaunteth not itself, is not puffed up, 5 doth
not behave itself unseemly, seeketh not her own, is not
easily provoked, thinketh no evil; 6 rejoiceth not in in­
iquity, but rejoiceth in the truth; 7beareth all things,
believeth all things, hopeth all things, endureth all
things.
8 Charity never faileth: but whether there be prophe­
cies, they shall fail; whether there be tongues, they
shall cease; whether there be knowledge, it shall van­
ish away. 9 For we know in part, and we prophesy in
part. 10 But when that which is perfect is come, then
that which is in part shall be done away.
11 When I was a child, I spake as a child, I understood
as a child, I thought as a child: but when I became a
man, I put away childish things. 12 For now we see
through a glass, darkly; but then face to face: now I
know in part; but then shall I know even as also I am
known. 13 And now abideth faith, hope, charity, these
three; but the greatest of these is charity.

4.6.

032

New International Version [NIV]
Ilf I speak in the tongues a of men or of angels, but
do not have love, I am only a resounding gong or a
clanging cymbal. 2If I have the gift of prophecy and
can fathom all mysteries and all knowledge, and if I
have a faith that can move mountains, but do not have
love, I am nothing. 3If I give all I possess to the poor
and give over my body to hardship that I may boast, &
but do not have love, I gain nothing.
4Love is patient, love is kind. It does not envy, it
does not boast, it is not proud. 5It does not dishonor
others, it is not self-seeking, it is not easily angered, it
keeps no record of wrongs. 6Love does not delight in
evil but rejoices with the truth. 7It always protects,
always trusts, always hopes, always perseveres.
8Love never fails. But where there are prophecies,
they will cease; where there are tongues, they will be
stilled; where there is knowledge, it will pass away.
9For we know in part and we prophesy in part, lObut
when completeness comes, what is in part disappears.
11 When I was a child, I talked like a child, I thought
like a child, I reasoned like a child. When I became a
man, I put the ways of childhood behind me. 12For
now we see only a reflection as in a mirror; then we
shall see face to face. Now I know in part; then I shall
know fully, even as I am fully known.
13And now these three remain: faith, hope and
love. But the greatest of these is love.

4.6.

033

Galatians 5:22-26
Authorized (King James) Version (AKJV)
22 But the fruit of the Spirit is love, joy, peace, longsuffering, gentleness, goodness, faith, 23 meekness, tem­
perance: against such there is no law.24 And they that
are Christ’s have crucified the flesh with the affections
and lusts.25 If we live in the Spirit, let us also walk in
the Spirit. 26 Let us not be desirous of vain glory, pro­
voking one another, envying one another.

New International Version [NIV]
22But the fruit of the Spirit is love, joy, peace, forbear­
ance, kindness, goodness, faithfulness, 23gentleness
and self-control. Against such things there is no law.
24Those who belong to Christ Jesus have crucified the
flesh with its passions and desires. 25Since we live by
the Spirit, let us keep in step with the Spirit. 26Let us
not become conceited, provoking and envying each
other.

4.7.

034

1 Corinthians 12: 7-11
Authorized (King James) Version (AKJV)
7 But the manifestation of the Spirit is given to every
man to profit withal. 8 For to one is given by the Spirit
the word of wisdom; to another the word of knowledge
by the same Spirit; 9 to another faith by the same
Spirit; to another the gifts of healing by the same
Spirit; 10 to another the working of miracles; to an­
other prophecy; to another discerning of spirits; to an­
other divers kinds of tongues; to another the interpre­
tation of tongues:11 but all these worketh that one and
the selfsame Spirit, dividing to every man severally as
he will.

New International Version [NIV]
7Now to each one the manifestation of the Spirit is
given for the common good. 8To one there is given
through the Spirit a message of wisdom, to another a
message of knowledge by means of the same Spirit,
9to another faith by the same Spirit, to another gifts
of healing by that one Spirit, lOto another miraculous
powers, to another prophecy, to another distinguish­
ing between spirits, to another speaking in different
kinds of tongues, a and to still another the interpreta­
tion of tongues. & 11 All these are the work of one and
the same Spirit, and he distributes them to each one,
just as he determines.

4.8.

035

Romans 4:17
Authorized (King James) Version (AKJV)
17 (as it is written, I have made thee a father of many
nations,) before him whom he believed, even God, who
quickeneth the dead, and calleth those things which
be not as though they were.

New International Version [NIV]
17As it is written: “I have made you a father of many
nations.” £ He is our father in the sight of God, in
whom he believed—the God who gives life to the dead
and calls into being things that were not.

4.9.

036

John 1: 1-5 and John 1:14-18
Authorized (King James) Version (AKJV)
In the beginning was the Word, and the Word was
with God, and the Word was God. 2 The same was in
the beginning with God. 3 All things were made by
him; and without him was not anything made that
was made. 4 In him was life; and the life was the light
of men. 5 And the light shineth in darkness; and the
darkness comprehended it not.
14 And the Word was made flesh, and dwelt among us,
(and we beheld his glory, the glory as of the only be­
gotten of the Father,) full of grace and truth.
15 John bare witness of him, and cried, saying, This
was he of whom I spake, He that cometh after me is
preferred before me: for he was before me.16 And of his
fulness have all we received, and grace for grace.17 For
the law was given by Moses, but grace and truth came
by Jesus Christ.18 No man hath seen God at any time;
the only begotten Son, which is in the bosom of the
Father, he hath declared him.

New International Version [NIV]
Hn the beginning was the Word, and the Word was
with God, and the Word was God. 2He was with God
in the beginning. 3Through him all things were made;
without him nothing was made that has been made.
4In him was life, and that life was the light of all man­
kind. 5The light shines in the darkness, and the dark­
ness has not overcome a it.

4.9.1.

037

14The Word became flesh and made his dwelling
among us. We have seen his glory, the glory of the one
and only Son, who came from the Father, full of grace
and truth.
15(John testified concerning him. He cried out,
saying, “This is the one I spoke about when I said, ‘He
who comes after me has surpassed me because he was
before me.’”) 160ut of his fullness we have all received
grace in place of grace already given. 17For the law
was given through Moses; grace and truth came
through Jesus Christ. 18No one has ever seen God,
but the one and only Son, who is himself God and £ is
in closest relationship with the Father, has made him
known.

4.9.1.

038

Matthew 23: 23-24
Authorized (King James) Version (AKJV)
23.Woe unto you, scribes and Pharisees, hypocrites!
for ye pay tithe of mint and anise and cummin, and
have omitted the weightier matters of the law, judg­
ment, mercy, and faith: these ought ye to have done,
and not to leave the other undone. 24 Ye blind guides,
which strain at a gnat, and swallow a camel.

New International Version [NIV]
23“Woe to you, teachers of the law and Pharisees,
you hypocrites! You give a tenth of your spices—mint,
dill and cumin. But you have neglected the more im­
portant matters of the law-justice, mercy and faith­
fulness. You should have practiced the latter, without
neglecting the former. 24You blind guides! You strain
out a gnat but swallow a camel.

4.9.2.

039

John 4:1-26
Authorized (King James) Version (AKJV)
When therefore the Lord knew how the Pharisees had
heard that Jesus made and baptized more disciples
than John, 2 (though Jesus himself baptized not, but
his disciples,) 3 he left Judea, and departed again into
Galilee. 4 And he must needs go through Samaria.
5 Then cometh he to a city of Samaria, which is called
Sychar, near to the parcel of ground that Jacob gave
to his son Joseph. 6 Now Jacob’s well was there. Jesus
therefore, being wearied with his journey, sat thus on
the well: and it was about the sixth hour. 7 There
cometh a woman of Samaria to draw water: Jesus
saith unto her, Give me to drink. 8 (For his disciples
were gone away unto the city to buy meat.) 9 Then
saith the woman of Samaria unto him, How is it that
thou, being a Jew, askest drink of me, which am a
woman of Samaria? for the Jews have no dealings
with the Samaritans.10 Jesus answered and said unto
her, If thou knewest the gift of God, and who it is that
saith to thee, Give me to drink; thou wouldest have
asked of him, and he would have given thee living wa­
ter. 11 The woman saith unto him, Sir, thou hast noth­
ing to draw with, and the well is deep: from whence
then hast thou that living water? 12 Art thou greater
than our father Jacob, which gave us the well, and
drank thereof himself, and his children, and his cat­
tle? 13 Jesus answered and said unto her, Whosoever
drinketh of this water shall thirst again:14 but whoso­
ever drinketh of the water that I shall give him shall
never thirst; but the water that I shall give him shall
be in him a well of water springing up into everlasting
life. 15 The woman saith unto him, Sir, give me this
water, that I thirst not, neither come hither to draw.
4.9.3.

040

16 Jesus saith unto her, Go, call thy husband, and come
hither. 17 The woman answered and said, I have no
husband. Jesus said unto her, Thou hast well said, I
have no husband: 18 for thou hast had five husbands;
and he whom thou now hast is not thy husband: in
that saidst thou truly. 19 The woman saith unto him,
Sir, I perceive that thou art a prophet. 20 Our fathers
worshipped in this mountain; and ye say, that in Je­
rusalem is the place where men ought to worship.
21 Jesus saith unto her, Woman, believe me, the hour
cometh, when ye shall neither in this mountain, nor
yet at Jerusalem, worship the Father. 22 Ye worship ye
know not what: we know what we worship: for salva­
tion is of the Jews. 23 But the hour cometh, and now is,
when the true worshippers shall worship the Father
in spirit and in truth: for the Father seeketh such to
worship him. 24 God is a Spirit: and they that worship
him must worship him in spirit and in truth. 25 The
woman saith unto him, I know that Messias cometh,
which is called Christ: when he is come, he will tell us
all things. 26 Jesus saith unto her, I that speak unto
thee am he.
New International Version [NTV]
Not Included

4.9.3.

041

John 8:1-11
Authorized (King James) Version (AKJV)
Jesus went unto the mount of Olives. 2 And early in
the morning he came again into the temple, and all
the people came unto him; and he sat down, and
taught them. 3 And the scribes and Pharisees brought
unto him a woman taken in adultery; and when they
had set her in the midst, 4 they say unto him, Master,
this woman was taken in adultery, in the very act.
5 Now Moses in the law commanded us, that such
should be stoned: but what sayest thou? 6 This they
said, tempting him, that they might have to accuse
him. But Jesus stooped down, and with his finger
wrote on the ground, as though he heard them not.7 So
when they continued asking him, he lifted up himself,
and said unto them, He that is without sin among you,
let him first cast a stone at her. 8 And again he stooped
down, and wrote on the ground. 9 And they which
heard it, being convicted by their own conscience, went
out one by one, beginning at the eldest, even unto the
last: and Jesus was left alone, and the woman stand­
ing in the midst. 10 When Jesus had lifted up himself,
and saw none but the woman, he said unto her,
Woman, where are those thine accusers? hath no man
condemned thee? 11 She said, No man, Lord. And Je­
sus said unto her, Neither do I condemn thee: go, and
sin no more.
New International Version [NIV]
Not Included

4.9.4.

042

Luke 8:1-3
Authorized (King James) Version (AKJV)
And it came to pass afterward, that he went through­
out every city and village, preaching and shewing the
glad tidings of the kingdom of God: and the twelve
were with him, 2 and certain women, which had been
healed of evil spirits and infirmities, Mary called Mag­
dalene, out of whom went seven devils, 3 and Joanna
the wife of Chuza Herod’s steward, and Susanna, and
many others, which ministered unto him of their sub­
stance.

New International Version [NIV]
lAfter this, Jesus traveled about from one town and
village to another, proclaiming the good news of the
kingdom of God. The Twelve were with him, 2and also
some women who had been cured of evil spirits and
diseases: Mary (called Magdalene) from whom seven
demons had come out; 3Joanna the wife of Chuza, the
manager of Herod’s household; Susanna; and many
others. These women were helping to support them
out of their own means.

4.9.5.

043

Matthew 17:27
Authorized (King James) Version (AKJV)
27 Notwithstanding, lest we should offend them, go
thou to the sea, and cast an hook, and take up the fish
that first cometh up; and when thou hast opened his
mouth, thou shalt find a piece of money: that take, and
give unto them for me and thee.

New International Version [NIV]
27“But so that we may not cause offense, go to the lake
and throw out your line. Take the first fish you catch;
open its mouth and you will find a four-drachma coin.
Take it and give it to them for my tax and yours.”

4.9.6.

044

Matthew 14:13-21
Authorized (King James) Version (AKJV)
13 When Jesus heard of it, he departed thence by ship
into a desert place apart: and when the people had
heard thereof, they followed him on foot out of the cit­
ies. 14 And Jesus went forth, and saw a great multi­
tude, and was moved with compassion toward them,
and he healed their sick.
15 And when it was evening, his disciples came to him,
saying, This is a desert place, and the time is now past;
send the multitude away, that they may go into the
villages, and buy themselves victuals. 16 But Jesus
said unto them, They need not depart; give ye them to
eat. 17 And they say unto him, We have here but five
loaves, and two fishes. 18 He said, Bring them hither
to me.19 And he commanded the multitude to sit down
on the grass, and took the five loaves, and the two
fishes, and looking up to heaven, he blessed, and
brake, and gave the loaves to his disciples, and the dis­
ciples to the multitude. 20 And they did all eat, and
were filled: and they took up of the fragments that re­
mained twelve baskets full. 21 And they that had eaten
were about five thousand men, beside women and chil­
dren.
New International Version [NIV]
Not Included

4.9.7.

045

John 6:1-14
Authorized (King James) Version (AKJV)
After these things Jesus went over the sea of Galilee,
which is the sea of Tiberias. 2 And a great multitude
followed him, because they saw his miracles which he
did on them that were diseased. 3 And Jesus went up
into a mountain, and there he sat with his disciples.
4 And the passover, a feast of the Jews, was nigh.
5 When Jesus then lifted up his eyes, and saw a great
company come unto him, he saith unto Philip, Whence
shall we buy bread, that these may eat? 6 And this he
said to prove him: for he himself knew what he would
do. 7 Philip answered him, Two hundred pennyworth
of bread is not sufficient for them, that every one of
them may take a little. 8 One of his disciples, Andrew,
Simon Peter’s brother, saith unto him, 9 There is a lad
here, which hath five barley loaves, and two small
fishes: but what are they among so many? 10 And Je­
sus said, Make the men sit down. Now there was much
grass in the place. So the men sat down, in number
about five thousand. 11 And Jesus took the loaves; and
when he had given thanks, he distributed to the disci­
ples, and the disciples to them that were set down; and
likewise of the fishes as much as they would. 12 When
they were filled, he said unto his disciples, Gather up
the fragments that remain, that nothing be lost.
13 Therefore they gathered them together, and filled
twelve baskets with the fragments of the five barley
loaves, which remained over and above unto them
that had eaten.
14 Then those men, when they had seen the miracle
that Jesus did, said, This is of a truth that prophet
that should come into the world.

4.9.8.

046

New International Version [NIV]
Not Included

4.9.8.

047

Matthew 15:32-39
Authorized (King James) Version (AKJV)
32 Then Jesus called his disciples unto him, and said, I
have compassion on the multitude, because they con­
tinue with me now three days, and have nothing to
eat: and I will not send them away fasting, lest they
faint in the way. 33 And his disciples say unto him,
Whence should we have so much bread in the wilder­
ness, as to fill so great a multitude? 34 And Jesus saith
unto them, How many loaves have ye? And they said,
Seven, and a few little fishes. 35 And he commanded
the multitude to sit down on the ground. 36 And he
took the seven loaves and the fishes, and gave thanks,
and brake them, and gave to his disciples, and the dis­
ciples to the multitude. 37 And they did all eat, and
were filled: and they took up of the broken meat that
was left seven baskets full. 38 And they that did eat
were four thousand men, beside women and children.
39 And he sent away the multitude, and took ship, and
came into the coasts of Magdala.

New International Version [NIV]
Not Included

4.9.9.

048

Deuteronomy 30:19-20
Authorized (King James) Version (AKJV)
I call heaven and earth to record this day against you,
that I have set before you life and death, blessing and
cursing: therefore choose life, that both thou and thy
seed may live: 20 that thou mayest love the LORD thy
God, and that thou mayest obey his voice, and that
thou mayest cleave unto him: for he is thy life, and the
length of thy days: that thou mayest dwell in the land
which the LORD sware unto thy fathers, to Abraham,
to Isaac, and to Jacob, to give them.
New International Version [NIV]
Not Included

5.0.

049

U.S.C.A. Const. Art. I § 8, cl. 1
Section 8, Clause 1. Powers of Congress; Levy of
Taxes for
Common Defense and General Welfare; Uniformity
of Taxation
The Congress shall have Power To lay and collect
Taxes, Duties, Imposts and Excises, to pay the Debts
and provide for the common Defence and general Wel­
fare of the United States; but all Duties, Imposts and
Excises shall be uniform throughout the United
States;

5.1.

050

U.S.C.A. Const. Amend. V-Due Process
Amendment V. Due Process clause

No person shall be * -k -k deprived of life, liberty, or
property, without due process of law; -k Je "k

5.2.

051

U.S.C.A. Const. Amend. XIV, § 1-Due Proc
Section 1. Due process of law

if if if

nor shall any State deprive any person of life,
liberty, or property, without due process of law; if if if
nor deny to any person within its jurisdiction the
equal protection of the laws.

5.3.

052

U.S.C.A. Const. Amend. XI
Amendment XI. Suits Against States

The Judicial power of the United States shall not be
construed to extend to any suit in law or equity, com­
menced or prosecuted against one of the United States
by Citizens of another State, or by Citizens or Subjects
of any Foreign State.

5.4.

053

5 C.F.R. § 2635.101
§ 2635.101 Basic obligation of public service.
(a) Public service is a public trust. Each employee has
a responsibility to the United States Government and
its citizens to place loyalty to the Constitution, laws
and ethical principles above private gain. To ensure
that every citizen can have complete confidence in the
integrity of the Federal Government, each employee
shall respect and adhere to the principles of ethical
conduct set forth in this section, as well as the imple­
menting standards contained in this part and in sup­
plemental agency regulations.
(b) General principles. The following general princi­
ples apply to every employee and may form the basis
for the standards contained in this part. Where a sit­
uation is not covered by the standards set forth in this
part, employees shall apply the principles set forth in
this section in determining whether their conduct is
proper.
(1) Public service is a public trust, requiring employ­
ees to place loyalty to the Constitution, the laws and
ethical principles above private gain.
(2) Employees shall not hold financial interests that
conflict with the conscientious performance of duty.
(3) Employees shall not engage in financial transac­
tions using nonpublic Government information or al­
low the improper use of such information to further
any private interest.
(4) An employee shall not, except as permitted by sub­
part B of this part, solicit or accept any gift or other
item of monetary value from any person or entity
seeking official action from, doing business with, or
conducting activities regulated by the employee's
agency, or whose interests may be substantially

5.5.

054

affected by the performance or nonperformance of the
employee's duties.
(5) Employees shall put forth honest effort in the per­
formance of their duties.
(6) Employees shall not knowingly make unauthorized
commitments or promises of any kind purporting to
bind the Government.
(7) Employees shall not use public office for private
gain.
(8) Employees shall act impartially and not give pref­
erential treatment to any private organization or indi­
vidual.
(9) Employees shall protect and conserve Federal
property and shall not use it for other than authorized
activities.
(10) Employees shall not engage in outside employ­
ment or activities, including seeking or negotiating for
employment, that conflict with official Government
duties and responsibilities.
(11) Employees shall disclose waste, fraud, abuse, and
corruption to appropriate authorities.
(12) Employees shall satisfy in good faith their obliga­
tions as citizens, including all just financial obliga­
tions, especially those—such as Federal, State, or lo­
cal taxes—that are imposed by law.
(13) Employees shall adhere to all laws and regula­
tions that provide equal opportunity for all Americans
regardless of race, color, religion, sex, national origin,
age, or handicap.
(14) Employees shall endeavor to avoid any actions
creating the appearance that they are violating the
law or the ethical standards set forth in this part.
Whether particular circumstances create an appear­
ance that the law or these standards have been vio­
lated shall be determined from the perspective of a

5.5.

055

reasonable person with knowledge of the relevant
facts.
(c) Related statutes. In addition to the standards of
ethical conduct set forth in this part, there are conflict
of interest statutes that prohibit certain conduct.
Criminal conflict of interest statutes of general ap­
plicability to all employees, 18 U.S.C. 201, 203, 205,
208, and 209, are summarized in the appropriate sub­
parts of this part and must be taken into consideration
in determining whether conduct is proper. Citations to
other generally applicable statutes relating to em­
ployee conduct are set forth in subpart I and employ­
ees are further cautioned that there may be additional
statutory and regulatory restrictions applicable to
them generally or as employees of their specific agen­
cies. Because an employee is considered to be on notice
of the requirements of any statute, an employee
should not rely upon any description or synopsis of a
statutory restriction, but should refer to the statute
itself and obtain the advice of an agency ethics official
as needed.

5.5.

056

5 U.S.C.A. § 702
§ 702. Right of review
A person suffering legal wrong because of agency ac­
tion, or adversely affected or aggrieved by agency ac­
tion within the meaning of a relevant statute, is enti­
tled to judicial review thereof. An action in a court of
the United States seeking relief other than money
damages and stating a claim that an agency or an of­
ficer or employee thereof acted or failed to act in an
official capacity or under color of legal authority shall
not be dismissed nor relief therein be denied on the
ground that it is against the United States or that the
United States is an indispensable party. The United
States may be named as a defendant in any such ac­
tion, and a judgment or decree may be entered against
the United States: Provided, That any mandatory or
injunctive decree shall specify the Federal officer or
officers (by name or by title), and their successors in
office, personally responsible for compliance. Nothing
herein (1) affects other limitations on judicial review
or the power or duty of the court to dismiss any action
or deny relief on any other appropriate legal or equi­
table ground; or (2) confers authority to grant relief if
any other statute that grants consent to suit expressly
or impliedly forbids the relief which is sought.

5.6.

057

18U.S.C.A. § 1961
§ 1961. Definitions
Effective: May 11, 2016
As used in this chapter-(1) “racketeering activity” means (A) any act or threat
involving murder, kidnapping, gambling, arson, rob­
bery, bribery, extortion, dealing in obscene matter, or
dealing in a controlled substance or listed chemical (as
defined in section 102 of the Controlled Substances
Act), which is chargeable under State law and punish­
able by imprisonment for more than one year; (B) any
act which is indictable under any of the following pro­
visions of title 18, United States Code: Section 201 (re­
lating to bribery), section 224 (relating to sports brib­
ery), sections 471, 472, and 473 (relating to counter­
feiting), section 659 (relating to theft from interstate
shipment) if the act indictable under section659 is fe­
lonious, section 664 (relating to embezzlement from
pension and welfare funds), sections 891-894 (relating
to extortionate credit transactions), section 1028 (re­
lating to fraud and related activity in connection with
identification documents), section 1029 (relating to
fraud and related activity in connection with access
devices), section 1084 (relating to the transmission of
gambling information), section 1341 (relating to mail
fraud), section 1343 (relating to wire fraud), section
1344 (relating to financial institution fraud), section
1351 (relating to fraud in foreign labor contracting),
section 1425 (relating to the procurement of citizen­
ship or nationalization unlawfully), section 1426 (re­
lating to the reproduction of naturalization or citizen­
ship papers), section 1427 (relating to the sale of nat­
uralization or citizenship papers), sections 1461-1465
(relating to obscene matter), section 1503 (relating to
obstruction of justice), section 1510 (relating to
5.7.

058

obstruction of criminal investigations), section 1511
(relating to the obstruction of State or local law en­
forcement), section 1512 (relating to tampering with a
witness, victim, or an informant), section 1513 (relat­
ing to retaliating against a witness, victim, or an in­
formant), section 1542 (relating to false statement in
application and use of passport), section 1543 (relating
to forgery or false use of passport), section 1544 (relat­
ing to misuse of passport), section 1546 (relating to
fraud and misuse of visas, permits, and other docu­
ments), sections 1581-1592 (relating to peonage, slav­
ery, and trafficking in persons)., 1 sections 1831 and
1832 (relating to economic espionage and theft of
trade secrets), section 1951 (relating to interference
with commerce, robbery, or extortion), section 1952
(relating to racketeering), section 1953 (relating to in­
terstate transportation of wagering paraphernalia),
section 1954 (relating to unlawful welfare fund pay­
ments), section 1955 (relating to the prohibition of il­
legal gambling businesses), section 1956 (relating to
the laundering of monetary instruments), section
1957 (relating to engaging in monetary transactions
in property derived from specified unlawful activity),
section 1958 (relating to use of interstate commerce
facilities in the commission of murder-for-hire), sec­
tion 1960 (relating to illegal money transmitters), sec­
tions 2251, 2251A, 2252, and 2260 (relating to sexual
exploitation of children), sections 2312 and 2313 (re­
lating to interstate transportation of stolen motor ve­
hicles), sections 2314 and 2315 (relating to interstate
transportation of stolen property), section 2318 (relat­
ing to trafficking in counterfeit labels for
phonorecords, computer programs or computer pro­
gram documentation or packaging and copies of mo­
tion pictures or other audiovisual works), section 2319
(relating to criminal infringement of a copyright),
5.7.

059

section 2319A (relating to unauthorized fixation of
and trafficking in sound recordings and music videos
of live musical performances), section 2320 (relating
to trafficking in goods or services bearing counterfeit
marks), section 2321 (relating to trafficking in certain
motor vehicles or motor vehicle parts), sections 23412346 (relating to trafficking in contraband cigarettes),
sections 2421-24 (relating to white slave traffic), sec­
tions 175-178 (relating to biological weapons), sections
229-229F (relating to chemical weapons), section 831
(relating to nuclear materials), (C) any act which is in­
dictable under title 29, United States Code, section
186 (dealing with restrictions on payments and loans
to labor organizations) or section 501(c) (relating to
embezzlement from union funds), (D) any offense in­
volving fraud connected with a case under title 11 (ex­
cept a case under section 157 of this title), fraud in the
sale of securities, or the felonious manufacture, impor­
tation, receiving, concealment, buying, selling, or oth­
erwise dealing in a controlled substance or listed
chemical (as defined in section 102 of the Controlled
Substances Act), punishable under any law of the
United States, (E) any act which is indictable under
the Currency and Foreign Transactions Reporting
Act, (F) any act which is indictable under the Immi­
gration and Nationality Act, section 274 (relating to
bringing in and harboring certain aliens), section 277
(relating to aiding or assisting certain aliens to enter
the United States), or section 278 (relating to impor­
tation of alien for immoral purpose) if the act indicta­
ble under such section of such Act was committed for
the purpose of financial gain, or (G) any act that is in­
dictable under any provision listed in section
2332b (g)(5)(B);
(2) “State” means any State of the United States, the
District of Columbia, the Commonwealth of Puerto
5.7.

060

Rico, any territory or possession of the United States,
any political subdivision, or any department, agency,
or instrumentality thereof;
(3) “person” includes any individual or entity capable
of holding a legal or beneficial interest in property;
(4) “enterprise” includes any individual, partnership,
corporation, association, or other legal entity, and any
union or group of individuals associated in fact alt­
hough not a legal entity;
(5) “pattern of racketeering activity” requires at least
two acts of racketeering activity, one of which occurred
after the effective date of this chapter and the last of
which occurred within ten years (excluding any period
of imprisonment) after the commission of a prior act of
racketeering activity;
(6) “unlawful debt” means a debt (A) incurred or con­
tracted in gambling activity which was in violation of
the law of the United States, a State or political sub­
division thereof, or which is unenforceable under
State or Federal law in whole or in part as to principal
or interest because of the laws relating to usury, and
(B) which was incurred in connection with the busi­
ness of gambling in violation of the law of the United
States, a State or political subdivision thereof, or the
business of lending money or a thing of value at a rate
usurious under State or Federal law, where the usuri­
ous rate is at least twice the enforceable rate;
(7) “racketeering investigator” means any attorney or
investigator so designated by the Attorney General
and charged with the duty of enforcing or carrying into
effect this chapter;
(8) “racketeering investigation” means any inquiry
conducted by any racketeering investigator for the
purpose of ascertaining whether any person has been
involved in any violation of this chapter or of any final
order, judgment, or decree of any court of the United
5.7.

061

States, duly entered in any case or proceeding arising
under this chapter;
(9) “documentary material” includes any book, paper,
document, record, recording, or other material; and
(10) “Attorney General” includes the Attorney Gen­
eral of the United States, the Deputy Attorney Gen­
eral of the United States, the Associate Attorney Gen­
eral of the United States, any Assistant Attorney Gen­
eral of the United States, or any employee of the De­
partment of Justice or any employee of any depart­
ment or agency of the United States so designated by
the Attorney General to carry out the powers con­
ferred on the Attorney General by this chapter.
Any department or agency so designated may use in
investigations authorized by this chapter either the
investigative provisions of this chapter or the investi­
gative power of such department or agency otherwise
conferred by law.

5.7.

062

18 U.S.C.A. § 1962
§ 1962. Prohibited activities
(a) It shall be unlawful for any person who has re­
ceived any income derived, directly or indirectly, from
a pattern of racketeering activity or through collection
of an unlawful debt in which such person has partici­
pated as a principal within the meaning of section 2,
title 18, United States Code, to use or invest, directly
or indirectly, any part of such income, or the proceeds
of such income, in acquisition of any interest in, or the
establishment or operation of, any enterprise which is
engaged in, or the activities of which affect, interstate
or foreign commerce. A purchase of securities on the
open market for purposes of investment, and without
the intention of controlling or participating in the con­
trol of the issuer, or of assisting another to do so, shall
not be unlawful under this subsection if the securities
of the issuer held by the purchaser, the members of
his immediate family, and his or their accomplices in
any pattern or racketeering activity or the collection
of an unlawful debt after such purchase do not amount
in the aggregate to one percent of the outstanding se­
curities of any one class, and do not confer, either in
law or in fact, the power to elect one or more directors
of the issuer.
(b) It shall be unlawful for any person through a pat­
tern of racketeering activity or through collection of an
unlawful debt to acquire or maintain, directly or indi­
rectly, any interest in or control of any enterprise
which is engaged in, or the activities of which affect,
interstate or foreign commerce.
(c) It shall be unlawful for any person employed by or
associated with any enterprise engaged in, or the ac­
tivities of which affect, interstate or foreign commerce,
to conduct or participate, directly or indirectly, in the
5.8.

063

conduct of such enterprise's affairs through a pattern
of racketeering activity or collection of unlawful debt,
(d) It shall be unlawful for any person to conspire to
violate any of the provisions of subsection (a), (b), or
(c) of this section.

5.8.

064

18 U.S.C.A. § 1964
§ 1964. Civil remedies
(a) The district courts of the United States shall have
jurisdiction to prevent and restrain violations of sec­
tion 1962 of this chapter by issuing appropriate or­
ders, including, but not limited to: ordering any per­
son to divest himself of any interest, direct or indirect,
in any enterprise; imposing reasonable restrictions on
the future activities or investments of any person, in­
cluding, but not limited to, prohibiting any person
from engaging in the same type of endeavor as the en­
terprise engaged in, the activities of which affect in­
terstate or foreign commerce; or ordering dissolution
or reorganization of any enterprise, making due pro­
vision for the rights of innocent persons.
(b) The Attorney General may institute proceedings
under this section. Pending final determination
thereof, the court may at any time enter such restrain­
ing orders or prohibitions, or take such other actions,
including the acceptance of satisfactory performance
bonds, as it shall deem proper.
(c) Any person injured in his business or property by
reason of a violation of section 1962 of this chapter
may sue therefor in any appropriate United States
district court and shall recover threefold the damages
he sustains and the cost of the suit, including a rea­
sonable attorney's fee, except that no person may rely
upon any conduct that would have been actionable as
fraud in the purchase or sale of securities to establish
a violation of section 1962. The exception contained in
the preceding sentence does not apply to an action
against any person that is criminally convicted in con­
nection with the fraud, in which case the statute of
limitations shall start to run on the date on which the
conviction becomes final.
5.9.

065

18 U.S.C.A. § 2510
§ 2510. Definitions
Effective: November 2, 2002
As used in this chapter ~
(1) “wire communication” means any aural transfer
made in whole or in part through the use of facilities
for the transmission of communications by the aid of
wire, cable, or other like connection between the point
of origin and the point of reception (including the use
of such connection in a switching station) furnished or
operated by any person engaged in providing or oper­
ating such facilities for the transmission of interstate
or foreign communications or communications affect­
ing interstate or foreign commerce;
(2) “oral communication” means any oral communica­
tion uttered by a person exhibiting an expectation that
such communication is not subject to interception un­
der circumstances justifying such expectation, but
such term does not include any electronic communica­
tion;
(3) “State” means any State of the United States, the
District of Columbia, the Commonwealth of Puerto
Rico, and any territory or possession of the United
States;
(4) “intercept” means the aural or other acquisition of
the contents of any wire, electronic, or oral communi­
cation through the use of any electronic, mechanical,
or other device.
(5) “electronic, mechanical, or other device” means
any device or apparatus which can be used to intercept
a wire, oral, or electronic communication other than-(a) any telephone or telegraph instrument, equipment
or facility, or any component thereof, (i) furnished to
the subscriber or user by a provider of wire or elec­
tronic communication service in the ordinary course of
5.9.1.

066

its business and being used by the subscriber or user
in the ordinary course of its business or furnished by
such subscriber or user for connection to the facilities
of such service and used in the ordinary course of its
business; or (ii) being used by a provider of wire or
electronic communication service in the ordinary
course of its business, or by an investigative or law en­
forcement officer in the ordinary course of his duties;
(b) a hearing aid or similar device being used to cor­
rect subnormal hearing to not better than normal;
(6) “person” means any employee, or agent of the
United States or any State or political subdivision
thereof, and any individual, partnership, association,
joint stock company, trust, or corporation;
(7) “Investigative or law enforcement officer” means
any officer of the United States or of a State or politi­
cal subdivision thereof, who is empowered by law to
conduct investigations of or to make arrests for of­
fenses enumerated in this chapter, and any attorney
authorized by law to prosecute or participate in the
prosecution of such offenses;
(8) “contents”, when used with respect to any wire,
oral, or electronic communication, includes any infor­
mation concerning the substance, purport, or meaning
of that communication;
(9) “Judge of competent jurisdiction” means(a) a judge of a United States district court or a United
States court of appeals; and
(b) a judge of any court of general criminal jurisdiction
of a State who is authorized by a statute of that State
to enter orders authorizing interceptions of wire, oral,
or electronic communications;
(10) “communication common carrier” has the mean­
ing given that term in section 3 of the Communica­
tions Act of 1934;

5.9.1.

067

(11) “aggrieved person” means a person who was a
party to any intercepted wire, oral, or electronic com­
munication or a person against whom the interception
was directed;
(12) “electronic communication” means any transfer
of signs, signals, writing, images, sounds, data, or in­
telligence of any nature transmitted in whole or in
part by a wire, radio, electromagnetic, photoelectronic
or photo optical system that affects interstate or for­
eign commerce, but does not include(A) any wire or oral communication;
(B) any communication made through a tone-only
paging device;
(C) any communication from a tracking device (as de­
fined in section 3117 of this title); or
(D) electronic funds transfer information stored by a
financial institution in a communications system used
for the electronic storage and transfer of funds;
(13) “user” means any person or entity who(A) uses an electronic communication service; and
(B) is duly authorized by the provider of such service
to engage in such use;
(14) “electronic communications system” means any
wire, radio, electromagnetic, photo optical or photoe­
lectronic facilities for the transmission of wire or elec­
tronic communications, and any computer facilities or
related electronic equipment for the electronic storage
of such communications;
(15) “electronic communication service” means any
service which provides to users thereof the ability to
send or receive wire or electronic communications;
(16) “readily accessible to the general public” means,
with respect to a radio communication, that such com­
munication is not(A) scrambled or encrypted;

5.9.1.

068

(B) transmitted using modulation techniques whose
essential parameters have been withheld from the
public with the intention of preserving the privacy of
such communication;
(C) carried on a subcarrier or other signal subsidiary
to a radio transmission;
(D) transmitted over a communication system pro­
vided by a common carrier, unless the communication
is a tone only paging system communication; or
(E) transmitted on frequencies allocated under part
25, subpart D, E, or F of part 74, or part 94 of the Rules
of the Federal Communications Commission, unless,
in the case of a communication transmitted on a fre­
quency allocated under part 74 that is not exclusively
allocated to broadcast auxiliary services, the commu­
nication is a two-way voice communication by radio;
(17) “electronic storage” means(A) any temporary, intermediate storage of a wire or
electronic communication incidental to the electronic
transmission thereof; and
(B) any storage of such communication by an elec­
tronic communication service for purposes of backup
protection of such communication;
(18) “aural transfer” means a transfer containing the
human voice at any point between and including the
point of origin and the point of reception;
(19) “foreign intelligence information”, for purposes of
section 2517(6) of this title, means(A) information, whether or not concerning a United
States person, that relates to the ability of the United
States to protect against ~
(i) actual or potential attack or other grave hostile
acts of a foreign power or an agent of a foreign power;
(ii) sabotage or international terrorism by a foreign
power or an agent of a foreign power; or

5.9.1.

069

(iii) clandestine intelligence activities by an intelli­
gence service or network of a foreign power or by an
agent of a foreign power; or
(B) information, whether or not concerning a United
States person, with respect to a foreign power or for­
eign territory that relates to~
(i) the national defense or the security of the United
States; or
(ii) the conduct of the foreign affairs of the United
States;
(20) “protected computer” has the meaning set forth
in section 1030; and
(21) “computer trespasser”(A) means a person who accesses a protected com­
puter without authorization and thus has no reasona­
ble expectation of privacy in any communication
transmitted to, through, or from the protected com­
puter; and
(B) does not include a person known by the owner or
operator of the protected computer to have an existing
contractual relationship with the owner or operator of
the protected computer for access to all or part of the
protected computer.

5.9.1.

070

18 U.S.C.A. § 2511
§ 2511. Interception and disclosure of wire, oral, or
electronic communications prohibited
Effective: November 16, 2018
(1) Except as otherwise specifically provided in this
chapter any person who(a) intentionally intercepts, endeavors to intercept, or
procures any other person to intercept or endeavor to
intercept, any wire, oral, or electronic communication;
(b) intentionally uses, endeavors to use, or procures
any other person to use or endeavor to use any elec­
tronic, mechanical, or other device to intercept any
oral communication when(i) such device is affixed to, or otherwise transmits a
signal through, a wire, cable, or other like connection
used in wire communication; or
(ii) such device transmits communications by radio,
or interferes with the transmission of such communi­
cation; or
(iii) such person knows, or has reason to know, that
such device or any component thereof has been sent
through the mail or transported in interstate or for­
eign commerce; or
(iv) such use or endeavor to use (A) takes place on the
premises of any business or other commercial estab­
lishment the operations of which affect interstate or
foreign commerce; or (B) obtains or is for the purpose
of obtaining information relating to the operations of
any business or other commercial establishment the
operations of which affect interstate or foreign com­
merce; or
(v) such person acts in the District of Columbia, the
Commonwealth of Puerto Rico, or any territory or pos­
session of the United States;

5.9.2.

071

(c) intentionally discloses, or endeavors to disclose, to
any other person the contents of any wire, oral, or elec­
tronic communication, knowing or having reason to
know that the information was obtained through the
interception of a wire, oral, or electronic communica­
tion in violation of this subsection;
(d) intentionally uses, or endeavors to use, the con­
tents of any wire, oral, or electronic communication,
knowing or having reason to know that the infor­
mation was obtained through the interception of a
wire, oral, or electronic communication in violation of
this subsection; or
(e)(i) intentionally discloses, or endeavors to disclose,
to any other person the contents of any wire, oral, or
electronic communication, intercepted by means au­
thorized by sections 2511(2)(a)(ii), 2511(2)(b)-(c),
2511(2)(e), 2516, and 2518 of this chapter, (ii) knowing
or having reason to know that the information was ob­
tained through the interception of such a communica­
tion in connection with a criminal investigation, (iii)
having obtained or received the information in connec­
tion with a criminal investigation, and (iv) with intent
to improperly obstruct, impede, or interfere with a
duly authorized criminal investigation, shall be pun­
ished as provided in subsection (4) or shall be subject
to suit as provided in subsection (5).
(2)(a)(i) It shall not be unlawful under this chapter
for an operator of a switchboard, or an officer, em­
ployee, or agent of a provider of wire or electronic com­
munication service, whose facilities are used in the
transmission of a wire or electronic communication, to
intercept, disclose, or use that communication in the
normal course of his employment while engaged in
any activity which is a necessary incident to the ren­
dition of his service or to the protection of the rights
or property of the provider of that service, except that
5.9.2.

072

a provider of wire communication service to the public
shall not utilize service observing or random monitor­
ing except for mechanical or service quality control
checks.
(ii) Notwithstanding any other law, providers of wire
or electronic communication service, their officers,
employees, and agents, landlords, custodians, or other
persons, are authorized to provide information, facili­
ties, or technical assistance to persons authorized by
law to intercept wire, oral, or electronic communica­
tions or to conduct electronic surveillance, as defined
in section 101 of the Foreign Intelligence Surveillance
Act of 1978, if such provider, its officers, employees, or
agents, landlord, custodian, or other specified person,
has been provided with(A) a court order directing such assistance or a court
order pursuant to section 704 of the Foreign Intelli­
gence Surveillance Act of 1978 signed by the authoriz­
ing judge, or
(B) a certification in writing by a person specified in
section 2518(7) of this title or the Attorney General of
the United States that no warrant or court order is re­
quired by law, that all statutory requirements have
been met, and that the specified assistance is re­
quired, setting forth the period of time during which
the provision of the information, facilities, or technical
assistance is authorized and specifying the infor­
mation, facilities, or technical assistance required. No
provider of wire or electronic communication service,
officer, employee, or agent thereof, or landlord, custo­
dian, or other specified person shall disclose the exist­
ence of any interception or surveillance or the device
used to accomplish the interception or surveillance
with respect to which the person has been furnished a
court order or certification under this chapter, except
as may otherwise be required by legal process and
5.9.2.

073

then only after prior notification to the Attorney Gen­
eral or to the principal prosecuting attorney of a State
or any political subdivision of a State, as may be ap­
propriate. Any such disclosure shall render such per­
son liable for the civil damages provided for in section
2520. No cause of action shall lie in any court against
any provider of wire or electronic communication ser­
vice, its officers, employees, or agents, landlord, custo­
dian, or other specified person for providing infor­
mation, facilities, or assistance in accordance with the
terms of a court order, statutory authorization, or cer­
tification under this chapter.
(iii) If a certification under subparagraph (ii)(B) for
assistance to obtain foreign intelligence information is
based on statutory authority, the certification shall
identify the specific statutory provision and shall cer­
tify that the statutory requirements have been met.
(b) It shall not be unlawful under this chapter for an
officer, employee, or agent of the Federal Communica­
tions Commission, in the normal course of his employ­
ment and in discharge of the monitoring responsibili­
ties exercised by the Commission in the enforcement
of chapter 5 of title 47 of the United States Code, to
intercept a wire or electronic communication, or oral
communication transmitted by radio, or to disclose or
use the information thereby obtained.
(c) It shall not be unlawful under this chapter for a
person acting under color of law to intercept a wire,
oral, or electronic communication, where such person
is a party to the communication or one of the parties
to the communication has given prior consent to such
interception.
(d) It shall not be unlawful under this chapter for a
person not acting under color of law to intercept a
wire, oral, or electronic communication where such
person is a party to the communication or where one
5.9.2.

074

of the parties to the communication has given prior
consent to such interception unless such communica­
tion is intercepted for the purpose of committing any
criminal or tortious act in violation of the Constitution
or laws of the United States or of any State.
(e) Notwithstanding any other provision of this title
or section 705 or 706 of the Communications Act of
1934, it shall not be unlawful for an officer, employee,
or agent of the United States in the normal course of
his official duty to conduct electronic surveillance, as
defined in section 101 of the Foreign Intelligence Sur­
veillance Act of 1978, as authorized by that Act.
(f) Nothing contained in this chapter or chapter 121
or 206 of this title, or section 705 of the Communica­
tions Act of 1934, shall be deemed to affect the acqui­
sition by the United States Government of foreign in­
telligence information from international or foreign
communications, or foreign intelligence activities con­
ducted in accordance with otherwise applicable Fed­
eral law involving a foreign electronic communica­
tions system, utilizing a means other than electronic
surveillance as defined in section 101 of the Foreign
Intelligence Surveillance Act of 1978, and procedures
in this chapter or chapter 121 and the Foreign Intelli­
gence Surveillance Act of 1978 shall be the exclusive
means by which electronic surveillance, as defined in
section 101 of such Act, and the interception of domes­
tic wire, oral, and electronic communications may be
conducted.
(g) It shall not be unlawful under this chapter or chap­
ter 121 of this title for any person(i) to intercept or access an electronic communication
made through an electronic communication system
that is configured so that such electronic communica­
tion is readily accessible to the general public;

5.9.2.

075

(ii) to intercept any radio communication which is
transmitted(I) by any station for the use of the general public, or
that relates to ships, aircraft, vehicles, or persons in
distress;
(II) by any governmental, law enforcement, civil de­
fense, private land mobile, or public safety communi­
cations system, including police and fire, readily ac­
cessible to the general public;
(III) by a station operating on an authorized fre­
quency within the bands allocated to the amateur, cit­
izens band, or general mobile radio services; or
(IV) by any marine or aeronautical communications
system;
(iii) to engage in any conduct which(I) is prohibited by section 633 of the Communications
Act of 1934; or
(II) is excepted from the application of section 705(a)
of the Communications Act of 1934 by section 705(b)
of that Act;
(iv) to intercept any wire or electronic communication
the transmission of which is causing harmful interfer­
ence to any lawfully operating station or consumer
electronic equipment, to the extent necessary to iden­
tify the source of such interference; or
(v) for other users of the same frequency to intercept
any radio communication made through a system that
utilizes frequencies monitored by individuals engaged
in the provision or the use of such system, if such com­
munication is not scrambled or encrypted.
(h) It shall not be unlawful under this chapter(i) to use a pen register or a trap and trace device (as
those terms are defined for the purposes of chapter
206 (relating to pen registers and trap and trace de­
vices) of this title); or

5.9.2.

076

(ii) for a provider of electronic communication service
to record the fact that a wire or electronic communica­
tion was initiated or completed in order to protect such
provider, another provider furnishing service toward
the completion of the wire or electronic communica­
tion, or a user of that service, from fraudulent, unlaw­
ful or abusive use of such service.
(i) It shall not be unlawful under this chapter for a
person acting under color of law to intercept the wire
or electronic communications of a computer trespasser
transmitted to, through, or from the protected com­
puter, if~
(I) the owner or operator of the protected computer
authorizes the interception of the computer trespass­
er's communications on the protected computer;
(II) the person acting under color of law is lawfully
engaged in an investigation;
(III) the person acting under color of law has reason­
able grounds to believe that the contents of the com­
puter trespasser's communications will be relevant to
the investigation; and
(IV) such interception does not acquire communica­
tions other than those transmitted to or from the com­
puter trespasser.
(j) It shall not be unlawful under this chapter for a
provider of electronic communication service to the
public or remote computing service to intercept or dis­
close the contents of a wire or electronic communica­
tion in response to an order from a foreign government
that is subject to an executive agreement that the At­
torney General has determined and certified to Con­
gress satisfies section 2523.
(3)(a) Except as provided in paragraph (b) of this sub­
section, a person or entity providing an electronic com­
munication service to the public shall not intention­
ally divulge the contents of any communication (other
5.9.2.

077

than one to such person or entity, or an agent thereof)
while in transmission on that service to any person or
entity other than an addressee or intended recipient
of such communication or an agent of such addressee
or intended recipient.
(b) A person or entity providing electronic communi­
cation service to the public may divulge the contents
of any such communication(i) as otherwise authorized in section 2511(2)(a) or
2517 of this title;
(ii) with the lawful consent of the originator or any
addressee or intended recipient of such communica­
tion;
(iii) to a person employed or authorized, or whose fa­
cilities are used, to forward such communication to its
destination; or
(iv) which were inadvertently obtained by the service
provider and which appear to pertain to the commis­
sion of a crime, if such divulgence is made to a law
enforcement agency.
(4)(a) Except as provided in paragraph (b) of this sub­
section or in subsection (5), whoever violates subsec­
tion (1) of this section shall be fined under this title or
imprisoned not more than five years, or both.
(b) Conduct otherwise an offense under this subsec­
tion that consists of or relates to the interception of a
satellite transmission that is not encrypted or scram­
bled and that is transmitted(i) to a broadcasting station for purposes of retrans­
mission to the general public; or
(ii) as an audio subcarrier intended for redistribution
to facilities open to the public, but not including data
transmissions or telephone calls, is not an offense un­
der this subsection unless the conduct is for the pur­
poses of direct or indirect commercial advantage or
private financial gain.
5.9.2.

078

[(c) Redesignated (b)]
(5)(a)(i) If the communication is-(A) a private satellite video communication that is not
scrambled or encrypted and the conduct in violation of
this chapter is the private viewing of that communica­
tion and is not for a tortious or illegal purpose or for
purposes of direct or indirect commercial advantage or
private commercial gain; or
(B) a radio communication that is transmitted on fre­
quencies allocated under subpart D of part 74 of the
rules of the Federal Communications Commission
that is not scrambled or encrypted and the conduct in
violation of this chapter is not for a tortious or illegal
purpose or for purposes of direct or indirect commer­
cial advantage or private commercial gain, then the
person who engages in such conduct shall be subject
to suit by the Federal Government in a court of com­
petent jurisdiction.
(ii) In an action under this subsection(A) if the violation of this chapter is a first offense for
the person under paragraph (a) of subsection (4) and
such person has not been found liable in a civil action
under section 2520 of this title, the Federal Govern­
ment shall be entitled to appropriate injunctive relief;
and
(B) if the violation of this chapter is a second or sub­
sequent offense under paragraph (a) of subsection (4)
or such person has been found liable in any prior civil
action under section 2520, the person shall be subject
to a mandatory $500 civil fine.
(b) The court may use any means within its authority
to enforce an injunction issued under paragraph
(ii)(A), and shall impose a civil fine of not less than
$500 for each violation of such an injunction.

5.9.2.

079

18 U.S.C.A. § 2512
§ 2512. Manufacture, distribution, possession, and
advertising of wire,
oral, or electronic communication intercepting de­
vices prohibited
Effective: November 16, 2018
(1) Except as otherwise specifically provided in this
chapter, any person who intentionally ~
(a) sends through the mail, or sends or carries in in­
terstate or foreign commerce, any electronic, mechan­
ical, or other device, knowing or having reason to
know that the design of such device renders it primar­
ily useful for the purpose of the surreptitious intercep­
tion of wire, oral, or electronic communications;
(b) manufactures, assembles, possesses, or sells any
electronic, mechanical, or other device, knowing or
having reason to know that the design of such device
renders it primarily useful for the purpose of the sur­
reptitious interception of wire, oral, or electronic com­
munications, and that such device or any component
thereof has been or will be sent through the mail or
transported in interstate or foreign commerce; or
(c) places in any newspaper, magazine, handbill, or
other publication or disseminates by electronic means
any advertisement of~
(i) any electronic, mechanical, or other device know­
ing or having reason to know that the design of such
device renders it primarily useful for the purpose of
the surreptitious interception of wire, oral, or elec­
tronic communications; or
(ii) any other electronic, mechanical, or other device,
where such advertisement promotes the use of such
device for the purpose of the surreptitious interception
of wire, oral, or electronic communications, knowing
the content of the advertisement and knowing or
5.9.3.

080

having reason to know that such advertisement will
be sent through the mail or transported in interstate
or foreign commerce, shall be fined under this title or
imprisoned not more than five years, or both.
(2) It shall not be unlawful under this section for(a) a provider of wire or electronic communication
service or an officer, agent, or employee of, or a person
under contract with, such a provider, in the normal
course of the business of providing that wire or elec­
tronic communication service, or
(b) an officer, agent, or employee of, or a person under
contract with, the United States, a State, or a political
subdivision thereof, in the normal course of the activ­
ities of the United States, a State, or a political subdi­
vision thereof, to send through the mail, send or carry
in interstate or foreign commerce, or manufacture, as­
semble, possess, or sell any electronic, mechanical, or
other device knowing or having reason to know that
the design of such device renders it primarily useful
for the purpose of the surreptitious interception of
wire, oral, or electronic communications.
(3) It shall not be unlawful under this section to ad­
vertise for sale a device described in subsection (1) of
this section if the advertisement is mailed, sent, or
carried in interstate or foreign commerce solely to a
domestic provider of wire or electronic communication
service or to an agency of the United States, a State,
or a political subdivision thereof which is duly author­
ized to use such device.

5.9.3.

081

18 U.S.C.A. § 2513
§ 2513. Confiscation of wire, oral, or electronic com­
munication intercepting devices
Any electronic, mechanical, or other device used, sent,
carried, manufactured, assembled, possessed, sold, or
advertised in violation of section 2511 or section 2512
of this chapter may be seized and forfeited to the
United States. All provisions of law relating to (1) the
seizure, summary and judicial forfeiture, and condem­
nation of vessels, vehicles, merchandise, and baggage
for violations of the customs laws contained in title 19
of the United States Code, (2) the disposition of such
vessels, vehicles, merchandise, and baggage or the
proceeds from the sale thereof, (3) the remission or
mitigation of such forfeiture, (4) the compromise of
claims, and (5) the award of compensation to inform­
ers in respect of such forfeitures, shall apply to sei­
zures and forfeitures incurred, or alleged to have been
incurred, under the provisions of this section, insofar
as applicable and not inconsistent with the provisions
of this section; except that such duties as are imposed
upon the collector of customs or any other person with
respect to the seizure and forfeiture of vessels, vehi­
cles, merchandise, and baggage under the provisions
of the customs laws contained in title 19 of the United
States Code shall be performed with respect to seizure
and forfeiture of electronic, mechanical, or other inter­
cepting devices under this section by such officers,
agents, or other persons as may be authorized or des­
ignated for that purpose by the Attorney General.

5.9.4.

082

18 U.S.C.A. § 2515
§ 2515. Prohibition of use as evidence of intercepted
wire or oral communications
Whenever any wire or oral communication has been
intercepted, no part of the contents of such communi­
cation and no evidence derived therefrom may be re­
ceived in evidence in any trial, hearing, or other pro­
ceeding in or before any court, grand jury, depart­
ment, officer, agency, regulatory body, legislative com­
mittee, or other authority of the United States, a
State, or a political subdivision thereof if the disclo­
sure of that information would be in violation of this
chapter.

5.9.5.

083

18 U.S.C.A. § 2516
§ 2516. Authorization for interception of wire, oral, or
electronic communications
Effective: December 21, 2018
(1) The Attorney General, Deputy Attorney General,
Associate Attorney General, 1 or any Assistant Attor­
ney General, any acting Assistant Attorney General,
or any Deputy Assistant Attorney General or acting
Deputy Assistant Attorney General in the Criminal
Division or National Security Division specially desig­
nated by the Attorney General, may authorize an ap­
plication to a Federal judge of competent jurisdiction
for, and such judge may grant in conformity with sec­
tion 2518 of this chapter an order authorizing or ap­
proving the interception of wire or oral communica­
tions by the Federal Bureau of Investigation, or a Fed­
eral agency having responsibility for the investigation
of the offense as to which the application is made,
when such interception may provide or has provided
evidence of~
(a) any offense punishable by death or by imprison­
ment for more than one year under sections 2122 and
2274 through 2277 of title 42 of the United States
Code (relating to the enforcement of the Atomic En­
ergy Act of 1954), section 2284 of title 42 of the United
States Code (relating to sabotage of nuclear facilities
or fuel), or under the following chapters of this title:
chapter 10 (relating to biological weapons), chapter 37
(relating to espionage), chapter 55 (relating to kidnap­
ping), chapter 90 (relating to protection of trade se­
crets), chapter 105 (relating to sabotage), chapter 115
(relating to treason), chapter 102 (relating to riots),
chapter 65 (relating to malicious mischief), chapter
111 (relating to destruction of vessels), or chapter 81
(relating to piracy);
5.9.6.

084

(b) a violation of section 186 or section 501(c) of title
29, United States Code (dealing with restrictions on
payments and loans to labor organizations), or any of­
fense which involves murder, kidnapping, robbery, or
extortion, and which is punishable under this title;
(c) any offense which is punishable under the follow­
ing sections of this title: section 37 (relating to violence
at international airports), section 43 (relating to ani­
mal enterprise terrorism), section 81 (arson within
special maritime and territorial jurisdiction), section
201 (bribery of public officials and witnesses), section
215 (relating to bribery of bank officials), section 224
(bribery in sporting contests), subsection (d), (e), (0,
(g), (h), or (i) of section 844 (unlawful use of explo­
sives), section 1032 (relating to concealment of assets),
section 1084 (transmission of wagering information),
section 751 (relating to escape), section 832 (relating
to nuclear and weapons of mass destruction threats),
section 842 (relating to explosive materials), section
930 (relating to possession of weapons in Federal fa­
cilities), section 1014 (relating to loans and credit ap­
plications generally; renewals and discounts), section
1114 (relating to officers and employees of the United
States), section 1116 (relating to protection of foreign
officials), sections 1503, 1512, and 1513 (influencing
or injuring an officer, juror, or witness generally), sec­
tion 1510 (obstruction of criminal investigations), sec­
tion 1511 (obstruction of State or local law enforce­
ment), section 1581 (peonage), section 1582 (vessels
for slave trade), section 1583 (enticement into slav­
ery), section 1584 (involuntary servitude), section
1585 (seizure, detention, transportation or sale of
slaves), section 1586 (service on vessels in slave
trade), section 1587 (possession of slaves aboard ves­
sel), section 1588 (transportation of slaves from
United States), section 1589 (forced labor), section
5.9.6.

085

1590 (trafficking with respect to peonage, slavery, in­
voluntary servitude, or forced labor), section 1591 (sex
trafficking of children by force, fraud, or coercion), sec­
tion 1592 (unlawful conduct with respect to docu­
ments in furtherance of trafficking, peonage, slavery,
involuntary servitude, or forced labor), section 1751
(Presidential and Presidential staff assassination,
kidnapping, and assault), section 1951 (interference
with commerce by threats or violence), section 1952
(interstate and foreign travel or transportation in aid
of racketeering enterprises), section 1958 (relating to
use of interstate commerce facilities in the commis­
sion of murder for hire), section 1959 (relating to vio­
lent crimes in aid of racketeering activity), section
1954 (offer, acceptance, or solicitation to influence op­
erations of employee benefit plan), section 1955 (pro­
hibition of business enterprises of gambling), section
1956 (laundering of monetary instruments), section
1957 (relating to engaging in monetary transactions
in property derived from specified unlawful activity),
section 659 (theft from interstate shipment), section
664 (embezzlement from pension and welfare funds),
section 1343 (fraud by wire, radio, or television), sec­
tion 1344 (relating to bank fraud), section 1992 (relat­
ing to terrorist attacks against mass transportation),
sections 2251 and 2252 (sexual exploitation of chil­
dren), section 2251A (selling or buying of children),
section 2252A (relating to material constituting or
containing child pornography), section 1466A (relat­
ing to child obscenity), section 2260 (production of sex­
ually explicit depictions of a minor for importation
into the United States), sections 2421, 2422, 2423, and
2425 (relating to transportation for illegal sexual ac­
tivity and related crimes), sections 2312, 2313, 2314,
and 2315 (interstate transportation of stolen prop­
erty), section 2321 (relating to trafficking in certain
5.9.6.

086

motor vehicles or motor vehicle parts), section 2340A
(relating to torture), section 1203 (relating to hostage
taking), section 1029 (relating to fraud and related ac­
tivity in connection with access devices), section 3146
(relating to penalty for failure to appear), section
3521(b)(3) (relating to witness relocation and assis­
tance), section 32 (relating to destruction of aircraft or
aircraft facilities), section 38 (relating to aircraft parts
fraud), section 1963 (violations with respect to racket­
eer influenced and corrupt organizations), section 115
(relating to threatening or retaliating against a Fed­
eral official), section 1341 (relating to mail fraud), a
felony violation of section 1030 (relating to computer
fraud and abuse), section 351 (violations with respect
to congressional, Cabinet, or Supreme Court assassi­
nations, kidnapping, and assault), section 831 (relat­
ing to prohibited transactions involving nuclear mate­
rials), section 33 (relating to destruction of motor ve­
hicles or motor vehicle facilities), section 175 (relating
to biological weapons), section 175c (relating to variola
virus), section 956 (conspiracy to harm persons or
property overseas), a felony violation of section 1028
(relating to production of false identification documen­
tation), section 1425 (relating to the procurement of
citizenship or nationalization unlawfully), section
1426 (relating to the reproduction of naturalization or
citizenship papers), section 1427 (relating to the sale
of naturalization or citizenship papers), section 1541
(relating to passport issuance without authority), sec­
tion 1542 (relating to false statements in passport ap­
plications), section 1543 (relating to forgery or false
use of passports), section 1544 (relating to misuse of
passports), section 1546 (relating to fraud and misuse
of visas, permits, and other documents), or section 555
(relating to construction or use of international border
tunnels);
5.9.6.

087

(d) any offense involving counterfeiting punishable
under section 471, 472, or 473 of this title;
(e) any offense involving fraud connected with a case
under title 11 or the manufacture, importation, receiv­
ing, concealment, buying, selling, or otherwise dealing
in narcotic drugs, marihuana, or other dangerous
drugs, punishable under any law of the United States;
(f) any offense including extortionate credit transac­
tions under sections 892, 893, or 894 of this title;
(g) a violation of section 5322 of title 31, United
States Code (dealing with the reporting of currency
transactions), or section 5324 of title 31, United States
Code (relating to structuring transactions to evade re­
porting requirement prohibited);
(h) any felony violation of sections 2511 and 2512 (re­
lating to interception and disclosure of certain com­
munications and to certain intercepting devices) of
this title;
(i) any felony violation of chapter 71 (relating to ob­
scenity) of this title;
(j) any violation of section 60123(b) (relating to de­
struction of a natural gas pipeline), section 46502 (re­
lating to aircraft piracy), the second sentence of sec­
tion 46504 (relating to assault on a flight crew with
dangerous weapon), or section 46505(b)(3) or (c) (relat­
ing to explosive or incendiary devices, or endangerment of human life, by means of weapons on aircraft)
of title 49;
(k) any criminal violation of section 2778 of title 22
(relating to the Arms Export Control Act);
(l) the location of any fugitive from justice from an of­
fense described in this section;
(m) a violation of section 274, 277, or 278 of the Immi­
gration and Nationality Act (8 U.S.C. 1324, 1327, or
1328) (relating to the smuggling of aliens);

5.9.6.

088

(n) any felony violation of sections 922 and 924 of title
18, United States Code (relating to firearms);
(o) any violation of section 5861 of the Internal Reve­
nue Code of 1986 (relating to firearms);
(p) a felony violation of section 1028 (relating to pro­
duction of false identification documents), section
1542 (relating to false statements in passport applica­
tions), section 1546 (relating to fraud and misuse of
visas, permits, and other documents), section 1028A
(relating to aggravated identity theft) of this title or a
violation of section 274, 277, or 278 of the Immigration
and Nationality Act (relating to the smuggling of al­
iens); or
(q) any criminal violation of section 229 (relating to
chemical weapons) or section 2332, 2332a, 2332b,
2332d, 2332f, 2332g, 2332h 3 2339, 2339A, 2339B,
2339C, or 2339D of this title (relating to terrorism);
(r) any criminal violation of section 1 (relating to ille­
gal restraints of trade or commerce), 2 (relating to il­
legal monopolizing of trade or commerce), or 3 (relat­
ing to illegal restraints of trade or commerce in terri­
tories or the District of Columbia) of the Sherman Act
(15U.S.C. 1, 2, 3);
(s) any violation of section 670 (relating to theft of
medical products);
(t) any violation of the Export Control Reform Act of
2018; or
(u) any conspiracy to commit any offense described in
any subparagraph of this paragraph.
(2) The principal prosecuting attorney of any State, or
the principal prosecuting attorney of any political sub­
division thereof, if such attorney is authorized by a
statute of that State to make application to a State
court judge of competent jurisdiction for an order au­
thorizing or approving the interception of wire, oral,
or electronic communications, may apply to such judge
5.9.6.

089

for, and such judge may grant in conformity with sec­
tion 2518 of this chapter and with the applicable State
statute an order authorizing, or approving the inter­
ception of wire, oral, or electronic communications by
investigative or law enforcement officers having re­
sponsibility for the investigation of the offense as to
which the application is made, when such interception
may provide or has provided evidence of the commis­
sion of the offense of murder, kidnapping, human traf­
ficking, child sexual exploitation, child pornography
production, prostitution, gambling, robbery, bribery,
extortion, or dealing in narcotic drugs, marihuana or
other dangerous drugs, or other crime dangerous to
life, limb, or property, and punishable by imprison­
ment for more than one year, designated in any appli­
cable State statute authorizing such interception, or
any conspiracy to commit any of the foregoing of­
fenses.
(3) Any attorney for the Government (as such term is
defined for the purposes of the Federal Rules of Crim­
inal Procedure) may authorize an application to a Fed­
eral judge of competent jurisdiction for, and such
judge may grant, in conformity with section 2518 of
this title, an order authorizing or approving the inter­
ception of electronic communications by an investiga­
tive or law enforcement officer having responsibility
for the investigation of the offense as to which the ap­
plication is made, when such interception may provide
or has provided evidence of any Federal felony.

5.9.6.

090

18 U.S.C.A. § 2517
§ 2517. Authorization for disclosure and use of inter­
cepted wire, oral, or electronic communications
Effective: November 25, 2002
(1) Any investigative or law enforcement officer who,
by any means authorized by this chapter, has obtained
knowledge of the contents of any wire, oral, or elec­
tronic communication, or evidence derived therefrom,
may disclose such contents to another investigative or
law enforcement officer to the extent that such disclo­
sure is appropriate to the proper performance of the
official duties of the officer making or receiving the
disclosure.
(2) Any investigative or law enforcement officer who,
by any means authorized by this chapter, has obtained
knowledge of the contents of any wire, oral, or elec­
tronic communication or evidence derived therefrom
may use such contents to the extent such use is appro­
priate to the proper performance of his official duties.
(3) Any person who has received, by any means au­
thorized by this chapter, any information concerning
a wire, oral, or electronic communication, or evidence
derived therefrom intercepted in accordance with the
provisions of this chapter may disclose the contents of
that communication or such derivative evidence while
giving testimony under oath or affirmation in any pro­
ceeding held under the authority of the United States
or of any State or political subdivision thereof.
(4) No otherwise privileged wire, oral, or electronic
communication intercepted in accordance with, or in
violation of, the provisions of this chapter shall lose its
privileged character.
(5) When an investigative or law enforcement officer,
while engaged in intercepting wire, oral, or electronic
communications in the manner authorized herein,
5.9.7.

091

intercepts wire, oral, or electronic communications re­
lating to offenses other than those specified in the or­
der of authorization or approval, the contents thereof,
and evidence derived therefrom, may be disclosed or
used as provided in subsections (1) and (2) of this sec­
tion. Such contents and any evidence derived there­
from may be used under subsection (3) of this section
when authorized or approved by a judge of competent
jurisdiction where such judge finds on subsequent ap­
plication that the contents were otherwise intercepted
in accordance with the provisions of this chapter. Such
application shall be made as soon as practicable.
(6) Any investigative or law enforcement officer, or at­
torney for the Government, who by any means author­
ized by this chapter, has obtained knowledge of the
contents of any wire, oral, or electronic communica­
tion, or evidence derived therefrom, may disclose such
contents to any other Federal law enforcement, intel­
ligence, protective, immigration, national defense, or
national security official to the extent that such con­
tents include foreign intelligence or counterintelli­
gence (as defined in section 3 of the National Security
Act of 1947 (50 U.S.C. 401a)), or foreign intelligence
information (as defined in subsection (19) of section
2510 of this title), to assist the official who is to receive
that information in the performance of his official du­
ties. Any Federal official who receives information
pursuant to this provision may use that information
only as necessary in the conduct of that person's offi­
cial duties subject to any limitations on the unauthor­
ized disclosure of such information.
(7) Any investigative or law enforcement officer, or
other Federal official in carrying out official duties as
such Federal official, who by any means authorized by
this chapter, has obtained knowledge of the contents
of any wire, oral, or electronic communication, or
5.9.7.

092

evidence derived therefrom, may disclose such con­
tents or derivative evidence to a foreign investigative
or law enforcement officer to the extent that such dis­
closure is appropriate to the proper performance of the
official duties of the officer making or receiving the
disclosure, and foreign investigative or law enforce­
ment officers may use or disclose such contents or de­
rivative evidence to the extent such use or disclosure
is appropriate to the proper performance of their offi­
cial duties.
(8) Any investigative or law enforcement officer, or
other Federal official in carrying out official duties as
such Federal official, who by any means authorized by
this chapter, has obtained knowledge of the contents
of any wire, oral, or electronic communication, or evi­
dence derived therefrom, may disclose such contents
or derivative evidence to any appropriate Federal,
State, local, or foreign government official to the ex­
tent that such contents or derivative evidence reveals
a threat of actual or potential attack or other grave
hostile acts of a foreign power or an agent of a foreign
power, domestic or international sabotage, domestic
or international terrorism, or clandestine intelligence
gathering activities by an intelligence service or net­
work of a foreign power or by an agent of a foreign
power, within the United States or elsewhere, for the
purpose of preventing or responding to such a threat.
Any official who receives information pursuant to this
provision may use that information only as necessary
in the conduct of that person's official duties subject to
any limitations on the unauthorized disclosure of such
information, and any State, local, or foreign official
who receives information pursuant to this provision
may use that information only consistent with such
guidelines as the Attorney General and Director of
Central Intelligence shall jointly issue.
5.9.7.

093

18 U.S.C.A. § 2518
§ 2518. Procedure for interception of wire, oral, or
electronic communications
Effective: October 20, 1998
(1) Each application for an order authorizing or ap­
proving the interception of a wire, oral, or electronic
communication under this chapter shall be made in
writing upon oath or affirmation to a judge of compe­
tent jurisdiction and shall state the applicant's au­
thority to make such application. Each application
shall include the following information:
(a) the identity of the investigative or law enforce­
ment officer making the application, and the officer
authorizing the application;
(b) a full and complete statement of the facts and cir­
cumstances relied upon by the applicant, to justify his
belief that an order should be issued, including (i) de­
tails as to the particular offense that has been, is be­
ing, or is about to be committed, (ii) except as provided
in subsection (11), a particular description of the na­
ture and location of the facilities from which or the
place where the communication is to be intercepted,
(iii) a particular description of the type of communica­
tions sought to be intercepted, (iv) the identity of the
person, if known, committing the offense and whose
communications are to be intercepted;
(c) a full and complete statement as to whether or not
other investigative procedures have been tried and
failed or why they reasonably appear to be unlikely to
succeed if tried or to be too dangerous;
(d) a statement of the period of time for which the in­
terception is required to be maintained. If the nature
of the investigation is such that the authorization for
interception should not automatically terminate when
the described type of communication has been first
5.9.8.

094

obtained, a particular description of facts establishing
probable cause to believe that additional communica­
tions of the same type will occur thereafter;
(e) a full and complete statement of the facts concern­
ing all previous applications known to the individual
authorizing and making the application, made to any
judge for authorization to intercept, or for approval of
interceptions of, wire, oral, or electronic communica­
tions involving any of the same persons, facilities or
places specified in the application, and the action
taken by the judge on each such application; and
(f) where the application is for the extension of an or­
der, a statement setting forth the results thus far ob­
tained from the interception, or a reasonable explana­
tion of the failure to obtain such results.
(2) The judge may require the applicant to furnish
additional testimony or documentary evidence in sup­
port of the application.
(3) Upon such application the judge may enter an ex
parte order, as requested or as modified, authorizing
or approving interception of wire, oral, or electronic
communications within the territorial jurisdiction of
the court in which the judge is sitting (and outside
that jurisdiction but within the United States in the
case of a mobile interception device authorized by a
Federal court within such jurisdiction), if the judge de­
termines on the basis of the facts submitted by the ap­
plicant that(a) there is probable cause for belief that an individual
is committing, has committed, or is about to commit a
particular offense enumerated in section 2516 of this
chapter;
(b) there is probable cause for belief that particular
communications concerning that offense will be ob­
tained through such interception;

5.9.8.

095

(c) normal investigative procedures have been tried
and have failed or reasonably appear to be unlikely to
succeed if tried or to be too dangerous;
(d) except as provided in subsection (11), there is prob­
able cause for belief that the facilities from which, or
the place where, the wire, oral, or electronic commu­
nications are to be intercepted are being used, or are
about to be used, in connection with the commission of
such offense, or are leased to, listed in the name of, or
commonly used by such person.
(4) Each order authorizing or approving the intercep­
tion of any wire, oral, or electronic communication un­
der this chapter shall specify-(a) the identity of the person, if known, whose commu­
nications are to be intercepted;
(b) the nature and location of the communications fa­
cilities as to which, or the place where, authority to
intercept is granted;
(c) a particular description of the type of communica­
tion sought to be intercepted, and a statement of the
particular offense to which it relates;
(d) the identity of the agency authorized to intercept
the communications, and of the person authorizing
the application; and
(e) the period of time during which such interception
is authorized, including a statement as to whether or
not the interception shall automatically terminate
when the described communication has been first ob­
tained. An order authorizing the interception of a
wire, oral, or electronic communication under this
chapter shall, upon request of the applicant, direct
that a provider of wire or electronic communication
service, landlord, custodian or other person shall fur­
nish the applicant forthwith all information, facilities,
and technical assistance necessary to accomplish the
interception unobtrusively and with a minimum of
5.9.8.

096

18 U.S.C.A. § 2520
§ 2520. Recovery of civil damages authorized
Effective: November 16, 2018
(a) In general.-Except as provided in section
2511(2)(a)(ii), any person whose wire, oral, or elec­
tronic communication is intercepted, disclosed, or in­
tentionally used in violation of this chapter may in a
civil action recover from the person or entity, other
than the United States, which engaged in that viola­
tion such relief as may be appropriate.
(b) Relief.-In an action under this section, appropri­
ate relief includes(1) such preliminary and other equitable or declara­
tory relief as may be appropriate;
(2) damages under subsection (c) and punitive dam­
ages in appropriate cases; and
(3) a reasonable attorney's fee and other litigation
costs reasonably incurred.
(c) Computation of damages.--(l) In an action un­
der this section, if the conduct in violation of this chap­
ter is the private viewing of a private satellite video
communication that is not scrambled or encrypted or
if the communication is a radio communication that is
transmitted on frequencies allocated under subpart D
of part 74 of the rules of the Federal Communications
Commission that is not scrambled or encrypted and
the conduct is not for a tortious or illegal purpose or
for purposes of direct or indirect commercial ad­
vantage or private commercial gain, then the court
shall assess damages as follows:
(A) If the person who engaged in that conduct has not
previously been enjoined under section 2511(5) and
has not been found liable in a prior civil action under
this section, the court shall assess the greater of the
sum of actual damages suffered by the plaintiff, or
6.1.

097

statutory damages of not less than $50 and not more
than $500.
(B) If, on one prior occasion, the person who engaged
in that conduct has been enjoined under section
2511(5) or has been found liable in a civil action under
this section, the court shall assess the greater of the
sum of actual damages suffered by the plaintiff, or
statutory damages of not less than $100 and not more
than $1000.
(2) In any other action under this section, the court
may assess as damages whichever is the greater of~
(A) the sum of the actual damages suffered by the
plaintiff and any profits made by the violator as a re­
sult of the violation; or
(B) statutory damages of whichever is the greater of
$100 a day for each day of violation or $10,000.
(d) Defense.-A good faith reliance on(1) a court warrant or order, a grand jury subpoena, a
legislative authorization, or a statutory authorization;
(2) a request of an investigative or law enforcement
officer under section 2518(7) of this title; or
(3) a good faith determination that section 2511(3),
2511(2)(i), or 2511(2)(j) of this title permitted the con­
duct complained of; is a complete defense against any
civil or criminal action brought under this chapter or
any other law.
(e) Limitation -A civil action under this section may
not be commenced later than two years after the date
upon which the claimant first has a reasonable oppor­
tunity to discover the violation.
(f) Administrative discipline.-If a court or appro­
priate department or agency determines that the
United States or any of its departments or agencies
has violated any provision of this chapter, and the
court or appropriate department or agency finds that
the circumstances surrounding the violation raise
6.1.

098

serious questions about whether or not an officer or
employee of the United States acted willfully or inten­
tionally with respect to the violation, the department
or agency shall, upon receipt of a true and correct copy
of the decision and findings of the court or appropriate
department or agency promptly initiate a proceeding
to determine whether disciplinary action against the
officer or employee is warranted. If the head of the de­
partment or agency involved determines that discipli­
nary action is not warranted, he or she shall notify the
Inspector General with jurisdiction over the depart­
ment or agency concerned and shall provide the In­
spector General with the reasons for such determina­
tion.
(g) Improper disclosure is violation. -Any willful
disclosure or use by an investigative or law enforce­
ment officer or governmental entity of information be­
yond the extent permitted by section 2517 is a viola­
tion of this chapter for purposes of section 2520(a).

6.1.

099

28 U.S.C.A. § 1331
§ 1331. Federal question
The district courts shall have original jurisdiction of
all civil actions arising under the Constitution, laws,
or treaties of the United States.

6.2.

100

28 U.S.C.A. § 1343
§ 1343. Civil rights and elective franchise
(a) The district courts shall have original jurisdiction
of any civil action authorized by law to be commenced
by any person:
(1) To recover damages for injury to his person or
property, or because of the deprivation of any right or
privilege of a citizen of the United States, by any act
done in furtherance of any conspiracy mentioned in
section 1985 of Title 42;
(2) To recover damages from any person who fails to
prevent or to aid in preventing any wrongs mentioned
in sectionl985 of Title 42 which he had knowledge
were about to occur and power to prevent;
(3) To redress the deprivation, under color of any
State law, statute, ordinance, regulation, custom or
usage, of any right, privilege or immunity secured by
the Constitution of the United States or by any Act of
Congress providing for equal rights of citizens or of all
persons within the jurisdiction of the United States;
(4) To recover damages or to secure equitable or other
relief under any Act of Congress providing for the pro­
tection of civil rights, including the right to vote.
(b) For purposes of this section(1) the District of Columbia shall be considered to be
a State; and
(2) any Act of Congress applicable exclusively to the
District of Columbia shall be considered to be a statute
of the District of Columbia.

6.3.

101

28 U.S.C.A. § 1491
§ 1491. Claims against United States generally; ac­
tions involving Tennessee Valley Authority
Effective: December 31, 2011
(a)(1) The United States Court of Federal Claims
shall have jurisdiction to render judgment upon any
claim against the United States founded either upon
the Constitution, or any Act of Congress or any regu­
lation of an executive department, or upon any ex­
press or implied contract with the United States, or
for liquidated or unliquidated damages in cases not
sounding in tort. For the purpose of this paragraph,
an express or implied contract with the Army and Air
Force Exchange Service, Navy Exchanges, Marine
Corps Exchanges, Coast Guard Exchanges, or Ex­
change Councils of the National Aeronautics and
Space Administration shall be considered an express
or implied contract with the United States.
(2) To provide an entire remedy and to complete the
relief afforded by the judgment, the court may, as an
incident of and collateral to any such judgment, issue
orders directing restoration to office or position, place­
ment in appropriate duty or retirement status, and
correction of applicable records, and such orders may
be issued to any appropriate official of the United
States. In any case within its jurisdiction, the court
shall have the power to remand appropriate matters
to any administrative or executive body or official with
such direction as it may deem proper and just. The
Court of Federal Claims shall have jurisdiction to ren­
der judgment upon any claim by or against, or dispute
with, a contractor arising under section 7104(b)(1) of
title 41, including a dispute concerning termination of
a contract, rights in tangible or intangible property,
compliance with cost accounting standards, and other
6.4.

102

28 U.S.C.A. § 1631
§ 1631. Transfer to cure want of jurisdiction
Effective: December 19, 2018
Whenever a civil action is filed in a court as defined in
section 610 of this title or an appeal, including a peti­
tion for review of administrative action, is noticed for
or filed with such a court and that court finds that
there is a want of jurisdiction, the court shall, if it is
in the interest of justice, transfer such action or appeal
to any other such court (or, for cases within the juris­
diction of the United States Tax Court, to that court)
in which the action or appeal could have been brought
at the time it was filed or noticed, and the action or
appeal shall proceed as if it had been filed in or noticed
for the court to which it is transferred on the date upon
which it was actually filed in or noticed for the court
from which it is transferred.

6.5.

103

28 U.S.C.A. § 2201
§ 2201. Creation of remedy
Effective: March 23, 2010

(a) In a case of actual controversy within its jurisdic­
tion, except with respect to Federal taxes other than
actions brought under section 7428 of the Internal
Revenue Code of 1986, a proceeding under section 505
or 1146 of title 11, or in any civil action involving an
antidumping or countervailing duty proceeding re­
garding a class or kind of merchandise of a free trade
area country (as defined in section 516A(f)(10) of the
Tariff Act of 1930), as determined by the administer­
ing authority, any court of the United States, upon the
filing of an appropriate pleading, may declare the
rights and other legal relations of any interested party
seeking such declaration, whether or not further relief
is or could be sought. Any such declaration shall have
the force and effect of a final judgment or decree and
shall be reviewable as such.
(b) For limitations on actions brought with respect to
drug patents see section 505 or 512 of the Federal
Food, Drug, and Cosmetic Act, or section 351 of the
Public Health Service Act.

6.6.

104

28 U.S.C.A. § 2202
§ 2202. Further relief

Further necessary or proper relief based on a declara­
tory judgment or decree may be granted, after reason­
able notice and hearing, against any adverse party
whose rights have been determined by such judgment.

6.6.1.

105

28 U.S.C.A. § 2679
§ 2679. Exclusiveness of remedy
(a) The authority of any federal agency to sue and be
sued in its own name shall not be construed to author­
ize suits against such federal agency on claims which
are cognizable under section 1346(b) of this title, and
the remedies provided by this title in such cases shall
be exclusive.
(b)(1) The remedy against the United States provided
by sections 1346(b) and 2672 of this title for injury or
loss of property, or personal injury or death arising or
resulting from the negligent or wrongful act or omis­
sion of any employee of the Government while acting
within the scope of his office or employment is exclu­
sive of any other civil action or proceeding for money
damages by reason of the same subject matter against
the employee whose act or omission gave rise to the
claim or against the estate of such employee. Any
other civil action or proceeding for money damages
arising out of or relating to the same subject matter
against the employee or the employee's estate is pre­
cluded without regard to when the act or omission oc­
curred.
(2) Paragraph (1) does not extend or apply to a civil
action against an employee of the Government(A) which is brought for a violation of the Constitution
of the United States, or
(B) which is brought for a violation of a statute of the
United States under which such action against an in­
dividual is otherwise authorized.
(c) The Attorney General shall defend any civil action
or proceeding brought in any court against any em­
ployee of the Government or his estate for any such
damage or injury. The employee against whom such
civil action or proceeding is brought shall deliver
6.7.

106

within such time after date of service or knowledge of
service as determined by the Attorney General, all
process served upon him or an attested true copy
thereof to his immediate superior or to whomever was
designated by the head of his department to receive
such papers and such person shall promptly furnish
copies of the pleadings and process therein to the
United States attorney for the district embracing the
place wherein the proceeding is brought, to the Attor­
ney General, and to the head of his employing Federal
agency.
(d)(1) Upon certification by the Attorney General that
the defendant employee was acting within the scope of
his office or employment at the time of the incident out
of which the claim arose, any civil action or proceeding
commenced upon such claim in a United States dis­
trict court shall be deemed an action against the
United States under the provisions of this title and all
references thereto, and the United States shall be sub­
stituted as the party defendant.
(2) Upon certification by the Attorney General that
the defendant employee was acting within the scope of
his office or employment at the time of the incident out
of which the claim arose, any civil action or proceeding
commenced upon such claim in a State court shall be
removed without bond at any time before trial by the
Attorney General to the district court of the United
States for the district and division embracing the
place in which the action or proceeding is pending.
Such action or proceeding shall be deemed to be an ac­
tion or proceeding brought against the United States
under the provisions of this title and all references
thereto, and the United States shall be substituted as
the party defendant. This certification of the Attorney
General shall conclusively establish scope of office or
employment for purposes of removal.
6.7.

107

(3) In the event that the Attorney General has refused
to certify scope of office or employment under this sec­
tion, the employee may at any time before trial peti­
tion the court to find and certify that the employee was
acting within the scope of his office or employment.
Upon such certification by the court, such action or
proceeding shall be deemed to be an action or proceed­
ing brought against the United States under the pro­
visions of this title and all references thereto, and the
United States shall be substituted as the party de­
fendant. A copy of the petition shall be served upon
the United States in accordance with the provisions of
Rule 4(d)(4) 1 of the Federal Rules of Civil Procedure.
In the event the petition is filed in a civil action or pro­
ceeding pending in a State court, the action or pro­
ceeding may be removed without bond by the Attorney
General to the district court of the United States for
the district and division embracing the place in which
it is pending. If, in considering the petition, the dis­
trict court determines that the employee was not act­
ing within the scope of his office or employment, the
action or proceeding shall be remanded to the State
court.
(4) Upon certification, any action or proceeding sub­
ject to paragraph (1), (2), or (3) shall proceed in the
same manner as any action against the United States
filed pursuant to section 1346(b) of this title and shall
be subject to the limitations and exceptions applicable
to those actions.
(5) Whenever an action or proceeding in which the
United States is substituted as the party defendant
under this subsection is dismissed for failure first to
present a claim pursuant to section 2675(a) of this ti­
tle, such a claim shall be deemed to be timely pre­
sented under section 2401(b) of this title if~

6.7.

108

(A) the claim would have been timely had it been filed
on the date the underlying civil action was com­
menced, and
(B) the claim is presented to the appropriate Federal
agency within 60 days after dismissal of the civil ac­
tion.
(e) The Attorney General may compromise or settle
any claim asserted in such civil action or proceeding
in the manner provided in section 2677, and with the
same effect.

6.7.

109

42 U.S.C.A. § 1983
§ 1983. Civil action for deprivation of rights
Effective: October 19, 1996
Every person who, under color of any statute, ordi­
nance, regulation, custom, or usage, of any State or
Territory or the District of Columbia, subjects, or
causes to be subjected, any citizen of the United States
or other person within the jurisdiction thereof to the
deprivation of any rights, privileges, or immunities se­
cured by the Constitution and laws, shall be liable to
the party injured in an action at law, suit in equity, or
other proper proceeding for redress, except that in any
action brought against a judicial officer for an act or
omission taken in such officer's judicial capacity, in­
junctive relief shall not be granted unless a declara­
tory decree was violated or declaratory relief was un­
available. For the purposes of this section, any Act of
Congress applicable exclusively to the District of Co­
lumbia shall be considered to be a statute of the Dis­
trict of Columbia.

6.8.

110

42 U.S.C.A. § 1985
§ 1985. Conspiracy to interfere with civil rights
(1) Preventing officer from performing duties
If two or more persons in any State or Territory con­
spire to prevent, by force, intimidation, or threat, any
person from accepting or holding any office, trust, or
place of confidence under the United States, or from
discharging any duties thereof; or to induce by like
means any officer of the United States to leave any
State, district, or place, where his duties as an officer
are required to be performed, or to injure him in his
person or property on account of his lawful discharge
of the duties of his office, or while engaged in the law­
ful discharge thereof, or to injure his property so as to
molest, interrupt, hinder, or impede him in the dis­
charge of his official duties;
(2) Obstructing justice; intimidating party, wit­
ness, or juror
If two or more persons in any State or Territory con­
spire to deter, by force, intimidation, or threat, any
party or witness in any court of the United States from
attending such court, or from testifying to any matter
pending therein, freely, fully, and truthfully, or to in­
jure such party or witness in his person or property on
account of his having so attended or testified, or to in­
fluence the verdict, presentment, or indictment of any
grand or petit juror in any such court, or to injure such
juror in his person or property on account of any ver­
dict, presentment, or indictment lawfully assented to
by him, or of his being or having been such juror; or if
two or more persons conspire for the purpose of imped­
ing, hindering, obstructing, or defeating, in any man­
ner, the due course of justice in any State or Territory,
with intent to deny to any citizen the equal protection
6.8.1.

111

of the laws, or to injure him or his property for lawfully
enforcing, or attempting to enforce, the right of any
person, or class of persons, to the equal protection of
the laws;
(3) Depriving persons of rights or privileges
If two or more persons in any State or Territory con­
spire or go in disguise on the highway or on the prem­
ises of another, for the purpose of depriving, either di­
rectly or indirectly, any person or class of persons of
the equal protection of the laws, or of equal privileges
and immunities under the laws; or for the purpose of
preventing or hindering the constituted authorities of
any State or Territory from giving or securing to all
persons within such State or Territory the equal pro­
tection of the laws; or if two or more persons conspire
to prevent by force, intimidation, or threat, any citizen
who is lawfully entitled to vote, from giving his sup­
port or advocacy in a legal manner, toward or in favor
of the election of any lawfully qualified person as an
elector for President or Vice President, or as a Member
of Congress of the United States; or to injure any citi­
zen in person or property on account of such support
or advocacy; in any case of conspiracy set forth in this
section, if one or more persons engaged therein do, or
cause to be done, any act in furtherance of the object
of such conspiracy, whereby another is injured in his
person or property, or deprived of having and exercis­
ing any right or privilege of a citizen of the United
States, the party so injured or deprived may have an
action for the recovery of damages occasioned by such
injury or deprivation, against any one or more of the
conspirators.

6.8.1.

112

42 U.S.C.A. § 1986
§ 1986. Action for neglect to prevent
Every person who, having knowledge that any of the
wrongs conspired to be done, and mentioned in section
1985 of this title, are about to be committed, and hav­
ing power to prevent or aid in preventing the commis­
sion of the same, neglects or refuses so to do, if such
wrongful act be committed, shall be liable to the party
injured, or his legal representatives, for all damages
caused by such wrongful act, which such person by
reasonable diligence could have prevented; and such
damages may be recovered in an action on the case;
and any number of persons guilty of such wrongful ne­
glect or refusal may be joined as defendants in the ac­
tion; and if the death of any party be caused by any
such wrongful act and neglect, the legal representa­
tives of the deceased shall have such action therefor,
and may recover not exceeding $5,000 damages
therein, for the benefit of the widow of the deceased, if
there be one, and if there be no widow, then for the
benefit of the next of kin of the deceased. But no action
under the provisions of this section shall be sustained
which is not commenced within one year after the
cause of action has accrued.

6.8.2.

113

42 U.S.C.A. § 2000e
§ 2000e. Definitions
For the purposes of this subchapter(a) The term “person” includes one or more individu­
als, governments, governmental agencies, political
subdivisions, labor unions, partnerships, associations,
corporations, legal representatives, mutual compa­
nies, joint-stock companies, trusts, unincorporated or­
ganizations, trustees, trustees in cases under Title 11,
or receivers.
(b) The term “employer” means a person engaged in
an industry affecting commerce who has fifteen or
more employees for each working day in each of
twenty or more calendar weeks in the current or pre­
ceding calendar year, and any agent of such a person,
but such term does not include (1) the United States,
a corporation wholly owned by the Government of the
United States, an Indian tribe, or any department or
agency of the District of Columbia subject by statute
to procedures of the competitive service (as defined in
section 2102 of Title 5), or (2) a bona fide private mem­
bership club (other than a labor organization) which
is exempt from taxation under section 501(c) of Title
26, except that during the first year after March 24,
1972, persons having fewer than twenty-five employ­
ees (and their agents) shall not be considered employ­
ers.
(c) The term “employment agency” means any person
regularly undertaking with or without compensation
to procure employees for an employer or to procure for
employees opportunities to work for an employer and
includes an agent of such a person.
(d) The term “labor organization” means a labor or­
ganization engaged in an industry affecting com­
merce, and any agent of such an organization, and in­
cludes any organization of any kind, any agency, or
employee representation committee, group, associa­
tion, or plan so engaged in which employees partici­
pate and which exists for the purpose, in whole or in
part, of dealing with employers concerning grievances,
labor disputes, wages, rates of pay, hours, or other
6.8.3.

